AUDIT OF THE CRIME VICTIMS FUND 

 DISBURSEMENTS TO THE FEDERAL 

 BUREAU OF INVESTIGATION AND 

 EXECUTIVE OFFICE FOR UNITED 

       STATES ATTORNEYS


        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 


            Audit Report 14-33 

             September 2014

    AUDIT OF CRIME VICTIMS FUND DISBURSEMENTS TO THE 

          FEDERAL BUREAU OF INVESTIGATION AND 

      EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS


                                  EXECUTIVE SUMMARY 


       The Crime Victims Fund (CVF), established by the Victims of Crime Act of
1984 (VOCA), is a major funding source for victim services throughout the nation.1
Funding for the CVF is generated from criminal fines, forfeited bail bonds, penalties,
and special assessments collected from offenders convicted of federal crimes. The
Office for Victims of Crime (OVC), within the Department of Justice Office of Justice
Programs (OJP), is responsible for the administration of the CVF.

       Each year Congress establishes a cap on the amount of CVF funds that the
OVC can distribute.2 Once the cap is established, the OVC distributes CVF funds in
accordance with the statutory distribution authorized by the VOCA to the Federal
Bureau of Investigation (FBI), the U.S. Attorneys’ Offices (USAO), the Victim
Notification System (VNS), and to state and local programs.

       The FBI’s CVF funds support 134 Victim Specialists assigned to FBI field
offices across the country to assist victims throughout the investigation of a federal
crime. The Executive Office for United States Attorneys (EOUSA) administers its
CVF funds for: (1) 170 Victim-Witness Coordinator positions in the USAOs, who
provide services to victims once charges have been filed in a federal case; and
(2) the VNS, an automated database that provides mandated notifications to
victims of federal crimes.3 Exhibit 1 shows the total CVF funding available to the
FBI and EOUSA under each program.

    EXHIBIT 1: TOTAL CVF FUNDING AVAILABLE TO THE FBI AND EOUSA
        CVF PROGRAM        FY 2009  FY 2010    FY 2011  FY 2012
 FBI VICTIM SPECIALISTS                 $14,640,991    $16,133,259    $17,640,763    $17,062,288
 USAOS VICTIM-WITNESS COORDINATORS      $23,134,638    $23,374,000    $23,439,800    $21,969,462
 VICTIM NOTIFICATION SYSTEM              $6,675,839     $5,500,000     $4,881,300     $4,525,751
Source: OJP

      As the administrator for the CVF, the OVC had recommended in 2011 and
2012 that the Office of the Inspector General (OIG) consider auditing the CVF
funding allocated to the FBI and EOUSA. Our review encompassed: (1) the
performance of each CVF program to ensure services were provided to victims in
        1
            42 U.S.C. § 10601 (2012).
        2
          The cap is established in the Commerce, Justice and Science appropriations enacted
annually by Congress.
        3
          Victim-Witness Coordinator positions also include Victim-Witness Assistants and
Victim-Witness Specialists.
accordance with applicable guidelines and policies and procedures, including
identifying any potential overlap between the funded positions; and (2) EOUSA’s
accounting and reporting of CVF funds for the Victim-Witness Coordinator positions
and the VNS for FYs 2009 through 2011.4

       In FY 2011, the FBI reported providing a total of 213,402 services to victims
of crime. These services included responding to crime scenes to assist victims in
the aftermath of a crime; providing referrals to victims for medical services,
counseling, housing, and state victim compensation; and conducting community
outreach to identify resources available in the victim’s area. In FY 2011, EOUSA
reported 232,794 direct contacts with victims in person, on the telephone, or
through e-mail concerning service referrals or case status information.

       We did not identify any significant non-compliance with the rules,
regulations, and guidelines governing the performance of the CVF funded positions
or the VNS while providing services to victims of federal crimes. However, we did
identify limited instances where victims were not afforded their rights under the
Crime Victims’ Rights Act (CVRA) or provided services under the Victims’ Rights and
Restitution Act (VRRA).5 These instances, although not significant in comparison to
the overall program performance, indicate improvements can be made to ensure all
victims are afforded their rights. As such, we have identified areas for
improvement related to performance under each of the CVF programs we reviewed.

       We found that Assistant U.S. Attorneys (AUSA) and investigative agencies do
not consistently notify or provide complete and accurate victim information to the
Victim-Witness Coordinators when a case involves victims, which can result in
victims not being afforded their rights under the CVRA or provided services under
the VRRA. Therefore, we identified areas of improvement regarding the process of
transitioning cases from investigative agencies to the USAOs. Additional needed
enhancements include increased coordination between the FBI, EOUSA, and OVC;
enhancements to the functionality of the VNS; and improved performance
reporting. These enhancements may facilitate compliance with federal victims’
services and rights laws by promoting timely notification to victims and providing
comprehensive assistance in obtaining services.

       We also found that EOUSA needs to improve internal controls over CVF funds
to ensure full compliance with all rules, regulations, and guidelines. Specifically, we
found that CVF funds were not properly tracked and documented in FYs 2009
through 2011 for the Victim-Witness Coordinator funding or the VNS funding. As a
result, $685,047 was expended on unallowable items, and the accounting records
for the CVF funds provided to support VNS Coordinator positions at the FBI, Federal

       4
          U.S. Department of Justice Office of the Inspector General, Audit of the Federal Bureau of
Investigation’s Accounting and Reporting of Funds Distributed from the Crime Victims Fund, Audit
Report 13-38 (September 2013), examines the FBI’s accounting and reporting of CVF funding used to
support FBI Victim Specialist positions.
       5
           42 U.S.C. § 10607 (2012) and 18 U.S.C. § 3771 (2012).


                                                 ii
Bureau of Prisons (BOP), and U.S. Postal Inspection Service (USPIS) were
insufficient. We did not identify any significant misuse of funds under the VNS
program.

       The inadequacies related to EOUSA’s tracking system also resulted in EOUSA
underreporting the amount of CVF funding that remained unspent for the
Victim-Witness Coordinator funding by approximately $228,483 in FY 2009 and
$329,539 in FY 2011.6 Also as a result, for the VNS funding, EOUSA underreported
the amount of unspent funds by approximately $29,475 in FY 2010 and $65,726 in
FY 2011 and received approximately $123,683 in additional funds in FY 2009
because the Interagency Agreement (IAA) between the OVC and EOUSA was never
modified to increase the total funding available to EOUSA for FY 2009.7 We did not
identify any significant excess reimbursements for Victim-Witness Coordinator
funded positions.

       EOUSA’s inadequate accounting, administration, and reporting of CVF
expenditures resulted in an increased risk for the misuse of CVF funds and failure to
pursue appropriate reimbursements for expenditures from the OVC. Additionally,
the misstatements of total expenditures in the future could prompt the OVC to
award EOUSA additional CVF funds beyond what it would otherwise receive. This
potentially affects the amount of CVF funding received by the state and local
programs as the VOCA’s statutory distribution system prescribes that state and
local programs receive annual CVF funding levels after all other program areas are
funded, including EOUSA’s CVF funds.

        Our audit resulted in 10 recommendations to the FBI, EOUSA, and OVC to
enhance program performance and improve the effectiveness of EOUSA’s internal
controls over CVF funds. Program performance recommendations include:
enhancements to the process of transitioning cases from investigative agencies to
the USAOs; increased coordination between the FBI, EOUSA, and OVC;
enhancements to the functionality of the VNS; and improved performance
reporting. Recommendations related to EOUSA’s accounting and reporting of CVF
funding include: EOUSA implementing internal controls to ensure compliance with
all rules, regulations, and guidelines related to the administration of CVF funds; and
the OVC remedying $691,399 in questioned costs from the Victim-Witness
Coordinator funding and the VNS funding.




         6
           The carryover amount is an estimate based on the accounting records at the time of
reporting. For the Victim-Witness Coordinator funding, the OVC approves the funding level requested
by EOUSA for the year and generally subtracts any unspent funding from the previous year’s funding
level, known as carryover funding, from the total requested amount. The difference represents new
funding from the CVF awarded to the EOUSA.
       7
          For the VNS funding, the OVC approves the funding level requested by EOUSA for the year
and generally adds any unspent funding from the previous year’s funding level, known as carryover
funding, to the total requested amount.


                                                 iii
          AUDIT OF CRIME VICTIMS FUND DISBURSEMENTS 

          TO THE FEDERAL BUREAU OF INVESTIGATION AND 

         EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS 


                                     TABLE OF CONTENTS


INTRODUCTION ..........................................................................................1

      Services Provided with CVF Funds ............................................................ 3 

         CVF Funding to Support the FBI Victim Specialists ................................... 3 

         CVF Funding to Support the Victim-Witness Coordinators at the USAOs ...... 4 

         CVF Funding to Support the VNS........................................................... 4 

      Office of the Inspector General Audit Approach .......................................... 5 

FINDINGS AND RECOMMENDATIONS ..........................................................6

I. 	 PERFORMANCE ENHANCEMENTS FOR CVF FUNDED PROGRAMS............6

      Transition of Cases from the Investigative Agencies to the USAOs................. 6 

         Transition Enhancements Specific to the FBI and USAOs .......................... 8 

      Victim Services Specific to Indian Country ............................................... 11 

         Coordination of Services Provided by the FBI and USAOs in Indian 

           Country ....................................................................................... 14 

      CVF Program Disparities at the FBI and EOUSA ........................................ 14 

      Enhancing the Functionality of VNS ........................................................ 16 

         Incomplete Victim Information in VNS for Multi-Agency Cases ................. 16 

         Access to Global Cases in VNS ............................................................ 17 

      Improved Performance Reporting ........................................................... 18 

         Discrepancies between Data Reported in the Annual Compliance Reports .. 19 

      Conclusion .......................................................................................... 20 

      Recommendations................................................................................ 21 

II.	 INADEQUATE INTERNAL CONTROLS OVER THE CVF FUNDS 

     ADMINISTERED BY EOUSA ................................................................. 23

      Accounting and Reporting of the Victim-Witness Coordinator Funding .......... 23 

         EOUSA System for Tracking CVF Expenditures for the Victim-Witness 

           Coordinator Positions ..................................................................... 23 

         Inaccurate Reporting of CVF Funds for the 170 Victim-Witness Positions... 25 

         Improper Use of CVF funds for the Victim–Witness Coordinator Positions 

           Due to Inadequate Internal Controls over the CVF Funds .................... 26 

      Accounting and Reporting of the VNS Funding .......................................... 27 

         Reimbursements Requested from the OVC under the VNS Program.......... 27 

        Inaccurate Reporting of CVF Funds for the VNS Program ........................ 28 

        Insufficient Accounting Records for the VNS Program ............................. 29 

     Conclusion .......................................................................................... 29 

     Recommendations................................................................................ 30 

STATEMENT ON INTERNAL CONTROLS ...................................................... 32

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ................ 33

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY .......................... 34

APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS ...................... 45

APPENDIX III: EXECUTIVE OFFICE FOR U.S. ATTORNEYS

  RESPONSE TO THE DRAFT AUDIT REPORT ............................................ 46

APPENDIX IV: FEDERAL BUREAU OF INVESTIGATION

  RESPONSE TO THE DRAFT AUDIT REPORT ............................................ 51

APPENDIX V: OFFICE OF JUSTICE PROGRAMS

  RESPONSE TO THE DRAFT AUDIT REPORT ............................................ 53

APPENDIX VI: OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND 

   SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT .............. 56

            AUDIT OF CRIME VICTIMS FUND DISBURSEMENTS
            TO THE FEDERAL BUREAU OF INVESTIGATION AND
           EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS

                                        INTRODUCTION

       The Crime Victims Fund (CVF), established by the Victims of Crime Act of
1984 (VOCA), is a major funding source for victim services throughout the nation.1
Funding for the CVF is generated from criminal fines, forfeited bail bonds, penalties,
and special assessments collected from offenders convicted of federal crimes.
Through an amendment to the VOCA in 1988, the Office for Victims of Crime (OVC)
was established within the Department of Justice (Department) Office of Justice
Programs (OJP) to administer the CVF.2 CVF funds support a wide range of victim
services and assistance, including assistance with medical care and mental health
counseling, support during criminal justice proceedings, and emergency financial
assistance.

       Each year during the appropriations process, Congress places a cap on the
funds available from the CVF for distribution in order to maintain the CVF as a
stable source of support for future services.3 The CVF caps enacted by Congress
were $635 million in fiscal year (FY) 2009 and $705 million each year from
FYs 2010 through 2012.

        Once the cap is established, the OVC distributes the funds to each authorized
program area in accordance with the statutory distribution authorized by the VOCA.
First, $10 to $20 million is used to provide grants to states in order to improve the
investigation and prosecution of child abuse (Children’s Justice Act).4 Additional
funds are then set aside for 3 programs to support federal victim services: (1) a
program to support Victim-Witness Coordinator full-time equivalent (FTE) positions
in the 94 U.S. Attorneys’ Offices (USAO); (2) a program to support Victim Specialist
FTE positions at the Federal Bureau of Investigation (FBI); and (3) a program to
support the federal Victim Notification System (VNS), an automated database that




       1
           42 U.S.C. § 10601 (2012).

       2
           42 U.S.C. § 10605 (2012).

        3
          The cap is established in the Commerce, Justice and Science appropriations enacted 

annually by Congress.
         4
            42 U.S.C. § 10603a (2012). For these grants, the term “state” includes each state, the
District of Columbia, and the Commonwealth of Puerto Rico.
provides mandated notifications to victims of federal crimes.5 The Executive Office
for United States Attorneys (EOUSA) administers the CVF funding for the
Victim-Witness Coordinators and the VNS.

       Of the amount remaining after the above allocations, 5 percent is used for
discretionary grants administered by the OVC for demonstration projects, training
and technical assistance, and services to victims of federal crimes; 47.5 percent is
available for state crime victim compensation grants; and 47.5 percent plus any
amount not used for state crime victim compensation grants is allocated for grants
to states to support direct assistance services to victims of crime.6

      Exhibit 1 below shows the distribution of CVF funds to each program area for
FYs 2009 through 2012.

           EXHIBIT 1: FYs 2009 THROUGH 2012 CVF DISTRIBUTION 

             OF FUNDS FOR EACH PROGRAM AREA (IN MILLIONS) 

PROGRAM AREA                                    FY 2009       FY 2010      FY 2011      FY 2012
CHILDREN’S JUSTICE ACT                            $20.0         $19.4        $20.0        $20.0
USAOS VICTIM-WITNESS COORDINATORS                  21.4           22.9        23.4         21.5
FBI VICTIM SPECIALISTS                             14.1           14.6        15.8         16.2
VICTIM NOTIFICATION SYSTEM                          5.0            5.5         4.8          4.5
OVC DISCRETIONARY GRANTS                           28.7           32.1        32.1         29.4
STATE VICTIM COMPENSATION GRANTS                  182.0         198.0        180.9        178.1
STATE VICTIM ASSISTANCE GRANTS                    363.8         412.1        428.1        379.7
MANAGEMENT AND ADMINISTRATIVE COSTS7                                                       55.6
TOTAL DISTRIBUTION OF CVF FUNDS                    $635         $705          $705        $705
Source: The National Association of VOCA Assistance Administrators, OVC, and OJP

       According to the OVC, the sequence in which CVF funds are distributed
annually can have a significant effect on the amount of funding available for victim
services supported by compensation and assistance formula grants. Because the
distribution of CVF funds for the state victim assistance grants is calculated after all
other program areas, an increase in any of the other program areas, including

       5
           When Congress created these programs, it made available “such sums as may be
necessary” to improve services to federal crime victims. Each year the OVC, as the administrator of
the CVF, approves the amount of new funding each program receives. In FY 2011, these programs
supported 170 Victim-Witness Coordinator FTE positions in the USAOs and 134 Victim Specialist FTE
positions at the FBI, and provided approximately $4.8 million in support to the VNS. The
Victim-Witness Coordinator positions also include Victim-Witness Assistants and Victim-Witness
Specialists.

        6
           After the annual distribution, up to 5 percent of amounts remaining in the CVF may be used
to replenish the $50 million Antiterrorism Emergency Reserve. These funds are available to assist
victims of international and domestic terrorism or mass violence.
        7
           For FY 2012 and subsequent years, Congress directed the Department to use program funds
for grant offices’ management and administrative costs. In FY 2012, OJP’s management and
administrative costs assessment averaged 8.1 percent of its grant program funding; the actual
amount assessed was approximately $55.6 million. Congress made a separate appropriation for OJP’s
management and administrative costs for FYs 2009 through 2011.


                                                  2

EOUSA’s programs, reduces the amount that remains available for state victim
assistance grants.

Services Provided with CVF Funds

       The Victims’ Rights and Restitution Act (VRRA) and the Crime Victims’ Rights
Act (CVRA) mandate that Department personnel provide victims with services and
“make their best efforts” to see that victims are accorded their rights during the
judicial process.8 The Attorney General Guidelines for Victim and Witness
Assistance (AG Guidelines) were established, based on these two core statutes, to
provide procedures to Department employees on the treatment of victims and
witnesses of crime. According to the AG Guidelines, investigative, prosecutorial,
correctional, and parole components are responsible for notifying victims and
assisting them in obtaining services throughout the judicial process. Investigative
agencies are responsible for providing services to victims until an investigation has
transferred to the prosecutorial entity or charges are filed, at which point the
responsibility transfers to the prosecutorial entities. Funding from the CVF is
provided to the FBI and EOUSA to improve the services provided to federal crime
victims and the VNS.

CVF Funding to Support the FBI Victim Specialists

        The FBI’s Office for Victim Assistance (OVA) is responsible for managing the
daily operational aspects of its Victim Assistance Program in 56 FBI field offices and
international offices, and for providing direction to 134 FBI Victim Specialists. The
FBI Victim Specialists are assigned to divisions and field offices throughout the
country to assist victims in coping with the immediate aftermath of a crisis and to
facilitate their cooperation with investigators and prosecutors throughout the
investigation of a federal crime.9 FBI Victim Specialists are responsible for ensuring
that victims who choose to receive notification are informed of case developments
and proceedings prior to the filing of charges, and directing victims to appropriate
victim assistance services in his or her location in accordance with the AG
Guidelines. These services include state crime victim compensation programs, rape
crisis centers, homicide bereavement support groups, mental health counseling,
and special services for child victims. FBI Victim Specialists are on call 24 hours a
day to provide direct services to victims at crime scenes, hospitals, and other
locations. Since FY 2001, the number of Victim Specialist positions within the FBI
has grown from 112 to 134. The total CVF funding available to the FBI for the
Victim Specialist positions was $14,640,991 in FY 2009, $16,133,259 in FY 2010,
$17,640,763 in FY 2011, and $17,062,288 in FY 2012.10

       8
           42 U.S.C. § 10607 (2012) and 18 U.S.C. § 3771 (2012).
       9
           Under the VRRA, Department responsibilities to crime victims begin as soon as possible after
the detection of a crime. Generally, this point in time is defined by the opening of a criminal
investigation.
       10
          Total available funding represents new funds distributed from the CVF as well as any
remaining funds from the previous year’s allocation.



                                                  3

CVF Funding to Support the Victim-Witness Coordinators at the USAOs

        Once an investigation has transferred to the prosecutorial entity or charges
are filed, the responsibility of providing services to victims transitions to the USAO
in the district where the prosecution is pending.11 Each of the 94 USAOs has a
Victim-Witness Program, usually led by a Victim-Witness Coordinator and staffed
with additional Victim-Witness personnel, such as advocates, assistants, and
specialists. Victim-Witness personnel assist victims of federal crimes throughout
the prosecution phase by informing those victims who choose to receive notification
of schedules of court proceedings, restitution orders, and their right to make oral
and written victim impact statements at an offender's sentencing, in accordance
with the AG Guidelines. They also provide services to victims including referrals for
counseling and medical care, assist victims with accessing victim’s compensation
programs, and accompany victims to court hearings. The Victim-Witness Program
staff is not only responsible for victims related to the FBI cases, but cases involving
victims brought to the USAO by any investigative agency including the Secret
Service, the Department of Homeland Security, and the Drug Enforcement
Administration. There were approximately 244 Victim-Witness Coordinator
positions throughout the USAOs in FY 2011, 170 of which were paid for using CVF
funds.12 The total CVF funding available to the EOUSA for the 170 Victim-Witness
Coordinator positions was $23,134,638 in FY 2009, $23,374,000 in FY 2010,
$23,439,800 in FY 2011, and $21,969,462 in FY 2012.

CVF Funding to Support the VNS

       The AG Guidelines mandate that responsible officials of federal investigative,
prosecutorial, and correctional components provide victims with certain services,
which include the earliest possible notice of key events during each phase of the
criminal justice process. The VNS is a shared application between the FBI; U.S.
Postal Inspection Service (USPIS); Criminal Division; USAOs; Federal Bureau of
Prisons (BOP); and Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF).13
The VNS provides the components with a timely, uniform, and consistent method
for informing victims who choose to receive notification about the progress of the
investigation, prosecution, or corrections stage of the case. EOUSA is responsible
for project oversight and maintenance of the VNS. The total CVF funding available


        11
             According to the AG Guidelines, CVRA rights attach when criminal proceedings are initiated
by complaint, information, or indictment. CVRA rights continue through any period of incarceration
and any term of supervised release, probation, community correction, alternatives to incarceration, or
parole. Absent a conviction, a victim’s CVRA rights cease when charges pertaining to that victim are
dismissed either voluntarily or on the merits, or if the government declines to bring formal charges
after filing a complaint.
        12
            In the Consolidation Appropriations Act of 2000, Congress amended the VOCA to provide
that “such sums as may be necessary shall be available for the USAOs to improve services for the
benefit of crime victims in the federal criminal justice system.” Congress further explained that the
funding would support 170 Victim-Witness Coordinator positions.
        13
             ATF joined the VNS in FY 2013.



                                                   4

for the VNS was $6,675,839 in FY 2009, $5,500,000 in FY 2010, $4,881,300 in
FY 2011, and $4,525,751 in FY 2012.

Office of the Inspector General Audit Approach

       As the administrator for the CVF, the OVC had recommended in 2011 and
2012 that the Office of the Inspector General (OIG) consider auditing the CVF
funding allocated to the FBI and EOUSA. The objectives of our audit were to:
(1) verify that services were provided to victims in accordance with applicable
guidelines, policies, and procedures for each CVF funded FTE program and the VNS,
including identifying any potential overlap between the funded positions;
(2) evaluate whether the funds allocated to EOUSA during FYs 2009 through 2011
to administer the CVF funding for the Victim-Witness Coordinator positions and the
VNS were used in accordance with applicable guidelines; and (3) evaluate the
adequacy of current internal controls, policies and procedures, and coordination
efforts of EOUSA, the USAOs, and OVC to ensure the funds from the CVF for the
Victim-Witness Coordinator positions and the VNS were completely and
appropriately accounted for.14

        To accomplish these objectives, we conducted interviews with officials at the
FBI, EOUSA, USAOs, OVC, and the Office of Tribal Justice (OTJ) and reviewed the
Annual Compliance Reports submitted by the FBI and EOUSA to evaluate
performance. We analyzed EOUSA’s accounting records to determine the reliability,
completeness, and accuracy of the data. We also conducted interviews with
officials at EOUSA, the USAOs, and OVC to determine how CVF funds are accounted
for and reported to the OVC and to identify what policies and procedures exist to
ensure CVF funds were used in accordance with applicable guidelines. Appendix I
contains a detailed description of our audit objectives, scope, and methodology.

      In this report, we first provide the results of our review of the services
provided to victims for the CVF funded programs, and then our assessment of
EOUSA’s accounting and reporting of CVF funds provided to support the
Victim-Witness Coordinators positions and the VNS.




       14
           U.S. Department of Justice Office of the Inspector General, Audit of the Federal Bureau of
Investigation’s Accounting and Reporting of Funds Distributed from the Crime Victims Fund, Audit
Report 13-38 (September 2013), examined the FBI’s accounting and reporting of CVF funds used to
support the FBI Victim Specialist positions.


                                                  5

                  FINDINGS AND RECOMMENDATIONS

I.    PERFORMANCE ENHANCEMENTS FOR CVF FUNDED PROGRAMS

      We did not identify any significant non-compliance with the rules,
      regulations, and guidelines governing the performance of the CVF
      funded positions or the VNS while providing services to federal victims
      of crime. However, we did identify limited instances where victims
      were not afforded their rights under the CVRA or provided services
      under the VRRA. These instances, although not significant in
      comparison to the overall program performance, indicate
      improvements can be made to ensure all victims are afforded their
      rights. As such, we identified areas for improvement that may
      enhance federal victims’ services. We found that Assistant U.S.
      Attorneys (AUSA) and investigative agencies do not consistently notify
      or provide complete and accurate victim information to the
      Victim-Witness Coordinators when a case involves victims, which can
      result in victims not being afforded their rights under the CVRA or
      provided services under the VRRA. Therefore, we identified areas of
      improvement regarding the process of transitioning cases from
      investigative agencies to the USAOs. Additional needed enhancements
      include increased coordination between the FBI, EOUSA, and OVC;
      enhancements to the functionality of the VNS; and improved
      performance reporting for the CVF funded positions. Overall,
      improvements in the process of providing services to victims can
      potentially limit delays in providing notification to victims, and increase
      efficiencies in the time and resources spent providing services to
      victims.

Transition of Cases from the Investigative Agencies to the USAOs

       As explained above, investigative agencies are responsible for providing
services to victims until an investigation has transferred to the prosecutorial entity
or charges are filed, at which point the responsibility transfers to the prosecutorial
entities. When an investigative agency transfers a case to a USAO for prosecution,
the case is assigned to an AUSA. If information is not provided to Victim-Witness
Coordinators accurately or timely, there is an increased risk that Department
employees will violate victims’ rights under the CVRA, which guarantees victims the
right to reasonable, accurate, and timely notice of any public court proceeding, and
that Department employees will fail to provide victims with the earliest possible




                                          6

notice of case events as required by the VRRA.15 Public court proceedings include
the initial appearance, scheduling changes or continuances, acceptance of a plea,
trial, the rendering of a verdict after trial, and sentencing.

       We found that AUSAs and investigative agencies do not consistently notify or
provide complete and accurate victim information to the Victim-Witness
Coordinators when a case involves victims. During our review, we identified
instances where the Victim-Witness Coordinators had not received notification that
a case involved victims until sentencing. As a result, the victims in these cases
were not afforded their rights under the CVRA, including: (1) the right to
reasonable, accurate, and timely notice of any public court proceeding; (2) the right
not to be excluded from any such public court proceeding; and (3) the right to be
reasonably heard at any public proceeding in the district court involving release,
plea, or sentencing. Additionally, these victims were not provided notice of
required case events or provided services under the VRRA.

       We determined that the lack of notification to Victim-Witness Coordinators
could have been caused by: (1) USAO staff omitting to check the box indicating
victims were involved in the case during data entry into their case management
system; (2) AUSAs not identifying that the case involved victims when the case was
opened; (3) AUSAs not notifying Victim-Witness Coordinators of a new case
involving victims; (4) investigative case agents not notifying AUSAs of victims
during the case opening meetings; or (5) investigative agencies, participating in the
VNS, not entering information into the VNS in a timely fashion.

       We also found that the process for informing the Victim-Witness Coordinators
of cases involving victims is not uniform across the USAOs. Some Victim-Witness
Coordinators are provided case opening sheets or prosecution memos by AUSAs,
which identifies the case as involving victims; some rely on the USAOs’ case
management system and the VNS for notification; and some attend the initial
meetings between the AUSA and investigative case agent.

      Although the responsibility of identifying victims begins with the investigative
agency and continues with the investigative agency throughout the criminal justice
process, we found that Victim-Witness Coordinators spend a substantial amount of

        15
            Under the CVRA, Department employees are required to “make their best efforts” to see
that crime victims are notified of, and accorded, their rights as early in the criminal justice process as
is feasible and appropriate. 18 U.S.C. § 3771. The Office of the Victim’s Rights Ombudsman (VRO)
within EOUSA investigates complaints related to possible CVRA violations by Department employees to
determine whether the employee used his or her "best efforts" to ensure crime victims' rights are not
violated. If the VRO determines the Department employee or component failed to comply with
provisions of federal law pertaining to the treatment of crime victims, but it was not in a willful or
wanton manner, the Department employee or component is required to undergo training on victims'
rights. If the VRO determines the violation was willful or wanton, the VRO recommends disciplinary
sanctions. See 28 C.F.R 45.10. During our review of the complaints filed with the VRO against
Department employees during FYs 2009 through 2011, one complaint rose to the level of disciplinary
sanctions. However, it was referred to the Office of Professional Responsibility for review. There were
also two complaints that resulted in additional training. For one of these complaints, the VRO did not
identify any violation. However, the VRO recommended additional training.


                                                    7

time attempting to obtain accurate and complete victim information from
investigative agencies once they are notified a case involves a victim. According to
the AG Guidelines, victim identification includes obtaining names and contact
information for each victim. Some of the Victim-Witness Coordinators told us that,
despite the statutory requirement to collect victim information, investigative
agencies do not provide any information to the USAOs. Because the statutory
requirement is not enforced, Victim-Witness Coordinators spend time collecting the
victim information, which can result in delays in notification. Additionally, prompt
notification of new cases that are brought to the USAOs would allow Victim-Witness
Coordinators to more effectively provide the required services to victims.

Transition Enhancements Specific to the FBI and USAOs

       According to the AG Guidelines, components that have access to the VNS
should enter identified victims’ names and contact information into the VNS as soon
as practical, but no later than when criminal charges are filed. The FBI and USAOs
use the VNS for mandatory notifications to victims. Data from the FBI’s and
USAOs’ case management systems are extracted and uploaded to the VNS
nightly.16 When an FBI case transitions to a USAO, the FBI provides its
investigative case number to the USAO. The USAO then enters the investigative
case number and related case information into its case management system. The
FBI investigative case number links the victim information entered into the VNS by
the FBI, which allows the Victim-Witness Coordinators to assume responsibility for
providing services to victims. We found that this data link does not always occur
because either the FBI does not provide the USAO with an accurate investigative
case number or the USAO does not accurately enter the case number into its case
management system.17

       Additionally, the data feed from the FBI’s case management system requires
manual intervention. Investigative agents must approve the release of victim
information before the data is exported from the FBI’s case management system to
the VNS. Once exported, the data is reviewed to ensure all information is in the
proper format for upload to the VNS. After the data integrity review, victim data is
uploaded into the VNS. Generally, we found it takes between 1 and 3 days to
export data from the FBI’s case management system and upload it to the VNS. In
some instances, a case involving a victim that has not been entered into the VNS at
the FBI will be opened at the USAO and therefore will not have corresponding FBI
data in the VNS. Without the victim information in the VNS, the Victim-Witness
Coordinators cannot provide notification to victims.


       16
           The FBI, USPIS, and ATF provide victim information to the USAOs through the VNS. All
other investigative agencies that have cases involving victims, such as the Department of Homeland
Security, Secret Service, and Internal Revenue Service, provide victim information to the AUSAs,
which is manually entered into the VNS by the Victim-Witness Coordinators.
       17
           A VNS error report is generated after every data upload into VNS that identifies FBI cases
that did not link to the USAOs’ case management system. The Victim-Witness Coordinators perform
daily reviews to resolve the VNS data link errors.


                                                  8

       The FBI OVA’s policy is to review all victim cases in the FBI’s case
management system monthly to ensure victim information is entered into the VNS
as soon as possible. For cases that have not been uploaded to the VNS, the FBI
OVA will contact the FBI Victim Specialist assigned to the case to determine why it
has not been uploaded. During our review, we found that there are circumstances,
beyond the FBI Victim Specialists’ control, when they do not enter all victim
information prior to criminal charging. For example, child pornography cases
require case agents to send any evidence containing images to the National Center
for Missing and Exploited Children (NCMEC). NCMEC reviews every image to
identify child victims, which is often a lengthy process. While NCMEC conducts its
review, a case will proceed through the judicial process to ensure defendants are
prosecuted timely. In these situations, victims may not be entered into the VNS
before criminal charges are filed because the victim information is not available.
Also, for most bank robberies, indictment is almost instantaneous with the opening
of an investigation; therefore there is little time for FBI Victim Specialists to enter
information into the VNS prior to criminal charging. In addition to these
circumstances, there are still instances when victim information was not entered
into the VNS at the FBI before the case is opened at the USAO.

       Overall, inefficiencies in the transition process result in slower and less
efficient provision of federal services to victims, as Victim-Witness Coordinators
cannot begin notifications until the data from the FBI’s case management system is
entered into the VNS and linked to the USAOs’ case management system data, and
time spent resolving data transfer conflicts reduces the time that can be spent
providing services to victims. It appears the FBI and USAOs could enhance the
transition process to ensure victim information is provided to USAOs through the
VNS in a timely and complete manner.

      Coordination of Services Provided by the FBI and USAOs

        Once an investigation has transferred to the prosecutorial entity or charges
are filed, the Victim-Witness Coordinators at the USAOs are responsible for
ensuring that referrals for services are made as appropriate. According to the AG
Guidelines, Department personnel should coordinate with each other in providing
victims with the services required by federal law and the AG Guidelines. If a victim
has already received referrals from the investigative agency, the prosecutorial
entity and investigative agency are required to employ their “best efforts” to
coordinate any existing and new referrals to ensure consistency, avoid duplication
of services, and serve the interests and needs of the victim.

      According to FBI officials and Victim-Witness Coordinators at the USAOs,
occasionally the FBI Victim Specialists will continue their involvement with a case
once charges have been filed and continue providing services to victims. In these
cases, the victim has typically developed a relationship with the FBI Victim
Specialist and prefers to continue this relationship throughout the judicial process.
In FYs 2010 and 2011, the services provided by FBI Victim Specialists to victims




                                           9

after charges had been filed were approximately 32 percent of the total services
provided.18 Services provided include referrals for medical services, counseling,
housing assistance, child protective services, case status updates, and assisting
with victim safety issues. Additionally, post indictment transportation services for
victims are often provided by the FBI Victim Specialists using department assigned
vehicles because the Victim-Witness Coordinators do not have department assigned
vehicles.

        The AG Guidelines also state that Department personnel should appropriately
coordinate with and introduce victims to other components’ and agencies’ victim
assistance personnel. From our review, we found differences in the level of
coordination between the FBI field offices and USAOs. Some FBI Victim Specialists
and Victim-Witness Coordinators had close working relationships in which FBI
Victim Specialists introduced victims to Victim-Witness Coordinators during the
transition phase and even invited the Victim-Witness Coordinators to participate
while the FBI Victim Specialist continued to provide victim services prior to the
transition to the prosecution phase. Other Victim-Witness Coordinators explained
they do not receive any communication from the FBI Victim Specialist and solely
rely on the VNS for information from the FBI. One FBI Victim Specialist explained
that national contact information for the Victim-Witness Coordinators throughout
the United States is not routinely exchanged.19 While the FBI Victim Specialists
know the Victim-Witness Coordinators in the district they are assigned, some cases
may be multijurisdictional and may require assistance from other districts. The FBI
Victim Specialist told us that it would be helpful to have access to a consolidated
listing of contact information for the Victim-Witness Coordinators.20

      In an effort to reduce duplication of services and improve the transition of
cases from the FBI to the USAOs, the FBI developed a Victim Services Checklist
in 2011. This checklist summarizes the victim services provided by the FBI Victim
Specialist prior to transitioning the case to the Victim-Witness Coordinator at the
USAO. When the Victim-Witness Coordinators receive the checklist, they can
determine what services have been provided, if any follow-up is necessary, and
what additional services are needed.

       When we asked the Victim-Witness Coordinators if they were receiving the
checklist, 6 out of the 36 Victim-Witness Coordinators interviewed said they
regularly receive the checklist, but 30 of the 36 Victim-Witness Coordinators did
not. Most Victim-Witness Coordinators aware of the checklist said that it would be
beneficial to them, and would like to see it fully implemented. A few

       18
           In FY 2010, 61,473 of the 188,835 total services provided by the FBI were provided after
charges were filed. In FY 2011, 68,965 of the 213,402 total services provided by the FBI were
provided after charges were filed.

      19
         In 2010, EOUSA provided the FBI with a listing of USAO Victim-Witness Coordinators.
EOUSA was also provided a list of FBI Victim Specialists in the past.
         20
             Each USAO has a public website, which includes a Victim-Witness Assistance section that
lists the Victim-Witness Coordinator contact information specific to that USAO.


                                                 10

Victim-Witness Coordinators felt that they have an adequate working relationship
with the FBI Victim Specialists, and therefore the checklist would not be necessary.

        Deficiencies in the transition process can result in delays in timely notification
to victims. This increases the risk that Department employees will violate victims’
rights under the CVRA, which guarantees victims the right to reasonable, accurate,
and timely notice of any public court proceeding. Additionally, these inefficiencies
could result in unnecessary time and resources spent providing services to victims
due to the duplication of services or inconsistencies in the referrals provided to
meet the interests of the victims.

       To improve the transition process, we recommend that EOUSA work with
each investigative agency, including the FBI, to develop a process that ensures
Victim-Witness Coordinators are notified and provided comprehensive victim
information as soon as a case involving victims is transitioned to the USAOs.
Additionally, we recommend that EOUSA and the FBI enhance coordination efforts
to ensure that case transitions to the USAOs are accomplished in a timely,
complete, and accurate manner; that all parties are aware of the services the FBI
Victim Specialists have already provided or may continue to provide at the request
of the victim; and that current contact information for the FBI Victim Specialists and
Victim-Witness Coordinators at the USAOs is exchanged between the FBI and
EOUSA.21

Victim Services Specific to Indian Country

       Many tribes experience rates of violent crime far higher than most other
Americans. FBI Victim Specialists and Victim-Witness Coordinators at the USAOs
working in Indian Country are often the sole providers of essential services for the
victims of violent crime. FBI Victim Specialists and Victim-Witness Coordinators
with whom we spoke emphasized some of the challenges they face when providing
these services in Indian Country. For example, due to the geographic isolation of
many reservations, assisting victims with obtaining victim services or attending
court hearings can be difficult as transportation to larger cities is not always
available. Additionally, victims may not have a mailing address or e-mail to receive
notifications pertaining to the status of a case. Finally, victims of violent crime may
not have seen their attacker, may be too frightened to testify against him or her in
court, or may have some form of domestic relationship with the suspect causing
them to be unwilling to testify in court. This, along with the often lengthy
prosecution process can make it difficult to maintain the victim’s cooperation
throughout the judicial process.

      In FY 2010, the OVC awarded EOUSA $432,249 in CVF resources for
12 additional Victim-Witness Coordinator positions to provide direct services to
federal crime victims in Indian Country based on the need for additional resources

       21
           In FY 2014, the FBI OVA provided guidance to FBI Victim Specialists making the use of the
Victim Services Checklist mandatory, which we believe to be an important step towards implementing
this recommendation.


                                                 11

to alleviate some of these challenges.22 The funding was not provided to EOUSA
until the end of FY 2010; therefore, the allocation did not support the costs of each
position for a full year. At the end of FYs 2010 and 2011, the 12 Victim-Witness
Coordinator positions remained unfilled and the CVF funds were carried forward into
the next fiscal year. EOUSA officials stated that the positions were not filled due to
the temporary Department-wide hiring freeze that went into effect January 21,
2011. In FY 2012, EOUSA determined it would not be able to fill the positions due
to the Department’s hiring freeze. As a result, in May 2012, the funding provided
for the 12 tribal positions was added to the total available funding in FY 2012 for
the original 170 Victim-Witness Coordinator positions and the positions that were to
be dedicated to Indian County were not filled. In contrast to EOUSA, the FBI was
also awarded 12 additional Indian Country Victim Specialist positions, which,
according to the FBI, were filled in 2010.

         The Department’s hiring freeze went into effect after EOUSA was awarded
the 12 additional Victim-Witness Coordinator positions to assist in Indian Country.
Despite EOUSA’s inability to fill the positions prior to the hiring freeze, we found
that the Attorney General was willing to consider a very limited number of
exemptions from the freeze for individual positions, in extraordinary circumstances
and on a case-by-case basis. A request for exemption from the freeze required:
(1) a position description and annual salary; (2) a justification for the critical need
to fill the position; (3) a statement of the impact on the mission if the position was
left unfilled; (4) a description of the funding source; and (5) a statement of why
current staff levels were not sufficient to fulfill the duties during the hiring freeze.23

        For the Victim-Witness Coordinator positions not specific to Indian Country
there was one new hire in FY 2011 and four new hires in FY 2012. Two of the five
positions were hired outside of EOUSA, while three were existing employees who
transferred within the USAO community. EOUSA requested hiring exemptions for
the two external Victim-Witness Coordinator positions as part of a comprehensive
critical position exemption request made to the Department to fill vacancies to
support EOUSA's mission.

       In contrast, EOUSA did not request exemptions for any of the
12 Victim-Witness Coordinator positions specific to Indian Country. According to
Justice Management Division (JMD) officials, there were no limits to the number of
hiring exemptions available to EOUSA, and a single request could have been used
for multiple exemptions with the same rational. EOUSA officials told us that EOUSA

       22
           The interagency agreement (IAA) to provide the additional funding was effective on
October 1, 2009. However, it was not signed until August 23, 2010.

       23
            On September 13, 2011 additional guidance was provided for requesting exemptions from
the hiring freeze. For each exemption, in addition to the original required information, components
were required to provide: (1) the current number of vacant positions; (2) the average vacancy rate
over the past 5 years; (3) current and projected attrition rates; (4) the component's projected
financial status in FY 2013 assuming a FY 2012 budget and proposed FY 2013 request; and (5) if
exemptions were requested to convert "term positions" to permanent positions, components were to
provide the "term positions" expiration.


                                                 12

did not request a hiring exemption for the 12 tribal positions because, as part of the
Department’s policy for requesting a hiring exemption, components were required
to certify both full-time equivalent (FTE) and funding availability for the positions
being requested. However, according to the policy provided by JMD, to request an
exemption from the hiring freeze, the component was required to provide a
“description of the funding source” for FYs 2011 and 2012. For FY 2012 exemption
requests, EOUSA was required to provide a projected financial status for FY 2013.
Based on our review of JMD policy, a certification of funds did not appear
necessary.

       Additionally, the OVC told us that if EOUSA had requested a hiring exemption
for these 12 tribal positions, the OVC would have provided funding through the CVF
to support the positions for the full year. Specifically, OVC officials told us that
during the funding request process for FY 2011, the OVC notified EOUSA that it
could request funding for the 12 tribal positions in addition to the original 170
Victim-Witness Coordinator positions. EOUSA did not request funding for the
12 tribal positions. Instead, it requested funding for the original 170
Victim-Witness Coordinator positions and asked the OVC for support for the
12 tribal positions if the hiring freeze was lifted or if hiring exemptions were
obtained. OVC officials also told us that in FY 2012 the OVC was hesitant about
funding the 12 tribal positions without EOUSA first obtaining a hiring exemption
because the OVC did not want the funding to supplement existing Victim-Witness
Coordinator positions. As such, the OVC told us that if EOUSA had received a hiring
exemption for the 12 tribal positions, the OVC would have provided funding from
the CVF. However, EOUSA did not attempt to request a hiring exemption in either
FY 2011 or 2012.

       These additional positions had been granted to EOUSA by the OVC to
contribute to the successful implementation of the Department’s Tribal Initiative
and meet the Department’s commitment to public safety in Indian Country. If
EOUSA had requested and JMD had granted a hiring exemption for these
12 Victim-Witness Coordinator positions, the OVC told us that it would have
provided funding through the CVF for the full year and, therefore, EOUSA would not
have required funds from the Department’s budget. Additionally, the $432,249 in
CVF resources provided to EOUSA in FY 2010 for the 12 tribal positions was
available to EOUSA and could have been used to hire at least 3 Victim-Witness
Coordinator positions had a hiring exemption been sought and approved. Overall,
we believe that EOUSA should have requested an exemption to fill these
12 Victim-Witness Coordinator positions because, had the request been granted,
the additional Victim-Witness Coordinators could have assisted in providing critical
support for victims of violent crime in Indian Country.




                                         13

Coordination of Services Provided by the FBI and USAOs in Indian Country

       FBI officials believed that additional resources were necessary in Indian
Country, noting that after filling the 12 additional Indian Country Victim Specialist
positions, the number of victim assistance personnel serving Indian Country
increased by 39 percent. Additionally, based on our interviews with the FBI Victim
Specialists dedicated to Indian Country, the majority of the post-indictment
services they provided related to victims in Indian Country, indicating that the
transition of cases from the FBI to the EOUSA, and possibly the amount of
resources provided by EOUSA in Indian Country, could be improved.

       The FBI Victim Specialists we spoke with felt that successful transitions to the
USAOs could be facilitated with: (1) an in-person meeting between the FBI Victim
Specialist, Victim-Witness Coordinator, and AUSA assigned to the case to introduce
the victims to the Victim-Witness Coordinator and AUSA and provide the victims an
opportunity to understand the judicial process and ask any questions; and
(2) increased cooperation from the Victim-Witness Coordinators to assist in
providing direct services to victims of crime in Indian Country once the case
transitions to the USAO. The Victim-Witness Coordinator we spoke with believed
that increased coordination with the FBI Victim Specialists regarding the services
provided post-indictment would be beneficial to ensure duties specific to the
Victim-Witness Coordinators are not performed by the FBI Victim Specialists.

        We also spoke to officials from OTJ, which serves as the primary point of
contact for Indian Tribes to listen to concerns and communicate Department
policies. One of the missions of the OTJ is to promote uniformity of Department
policies relating to Indian Country and coordinate with federal agencies regarding
tribal initiatives, including victim services. OTJ officials stated that greater
coordination between the OTJ, FBI, and EOUSA would be beneficial for all involved
agencies and Department components, and suggested that OTJ could play a role
standardizing procedures for providing victim services in Indian Country and
developing best practices and policies collaboratively with the FBI and EOUSA. OTJ
officials also stated that they could assist in promoting coordination with other
federal agencies working in Indian Country, most notably the Bureau of Indian
Affairs (BIA).

       To improve services in Indian Country, we recommend that EOUSA evaluate
the adequacy of the resources assigned to assist victims in Indian Country and
ensure that any future opportunities to increase the level of support in Indian
Country are appropriately pursued. Additionally, we recommend that EOUSA and
the FBI enhance coordination efforts with each other to improve the delivery of
victim services in Indian Country. This includes using OTJ as a resource for
developing best practices and policies and promoting coordination with other
federal agencies working in Indian Country.

CVF Program Disparities at the FBI and EOUSA

      The OVC expressed concern regarding the growing disparities between the
CVF funded FTE programs at the FBI and EOUSA, specifically the professional

                                          14

requirements, the services being provided, and the types of non-personnel costs
covered under each program.24 The OVC has not defined any requirements for the
CVF funded FTE programs that should be implemented by the FBI and EOUSA
related to professional requirements and services provided or implemented uniform
requirements for non-personnel costs. For example, we found that the
Victim-Witness Coordinator positions at the USAOs generally require an
undergraduate degree or the equivalent work experience, whereas the FBI Victim
Specialist positions require an undergraduate degree in a victim-related field and at
least 3 years of work experience in a victim services field.25 As explained
previously, approximately 32 percent of the services provided by the FBI are
post-indictment. In some cases this is because the victim prefers to continue their
relationship with the FBI Victim Specialists. In other cases it is because the FBI
Victim Specialists possess the specialized skills to support victims of traumatic
crime and provide direct services.

        Victim-Witness Coordinators also provide services to witnesses while the FBI
Victim Specialists solely assist victims. In 2000, Congress transferred support for
EOUSA’s Victim-Witness Program from the Department’s budget to the CVF. Time
spent on witness-related issues includes such duties as coordinating travel
arrangements for witnesses. From a judgmental sample of 19 USAOs, we reviewed
the performance of the 66 Victim-Witness Coordinators for FYs 2009 and 2010, and
69 Victim-Witness Coordinators for FY 2011. We found the average time spent on
witness-related issues for the year reported by the Victim-Witness Coordinators was
approximately 23 percent.26 Four out of 66 Victim-Witness Coordinators in
FY 2009, 5 out of 66 Victim-Witness Coordinators in FY 2010, and 4 out of 69
Victim-Witness Coordinators in FY 2011 reported spending 50 percent or more of
their time on witness-related issues. One of these Victim-Witness Coordinators
reported spending up to 80 percent of their time on witness-related issues in
FY 2010.

     Lastly, we found financial differences between the CVF funded FTE programs.
We determined that in FY 2009, EOUSA paid $17,630 more per FTE in CVF funds for

        24
            We did not assess whether one program performed more effectively. Our purpose was
solely to identify differences that exist between the FTE programs.

        25
            When the FBI OVA implemented these requirements, not all of the FBI Victim Specialists
met the standards. In order to maintain his or her position, the FBI OVA required each FBI Victim
Specialist to return to school to meet the requirements. According to the FBI, currently, over
75 percent of the FBI Victim Specialists possess a Master’s degree.
         26
            The average times spent on other activities for FYs 2009 through 2011 were:
(1) 22 percent for notification activities, (2) 35 percent for direct services, (3) 6 percent for liaison or
community outreach, (4) 5 percent for training, and (5) 8 percent for administrative or supervisory
activities. The percentages are self-reported by the Victim-Witness Coordinators based on each
Victim-Witness Coordinator’s year-end estimation of time spent in each category. The total
percentage of activity reported by the Victim-Witness Coordinators did not all equal 100 percent.
Therefore, the total average time spent on all activities by all Victim-Witness Coordinators did not
equal 100 percent.



                                                     15

overhead expenses than the FBI.27 Also, the OVC restricted the use of EOUSA’s
CVF funds by incorporating a specific list of unallowable expenses into the
interagency agreement (IAA) established between the OVC and EOUSA to
administer the funds. This list explains that specific expenses cannot be paid using
CVF funds for the Victim-Witness Coordinator positions. For example, costs
associated with personnel that are not on the list of 170 Victim-Witness Coordinator
FTE positions provided to the OVC are unallowable. This includes contractors and
any support staff working at EOUSA headquarters to assist Victim-Witness
Coordinators. The OVC did not place these restrictions on the uses of CVF funds for
the FBI.

      While we acknowledge the requirements may be different for each FTE
program, if the OVC does not establish requirements for the FTE programs, there is
a potential for differences to emerge. As such, we recommend the FBI, EOUSA,
and OVC discuss the need to better align the CVF funded FTE programs and, if
necessary, collaborate to establish requirements for the FTE positions that ensure
employees possess the necessary skills to support victims of crime so that the
highest quality of services are being provided to victims of crime.

Enhancing the Functionality of VNS

       During our review of the VNS, we identified potential enhancements to the
functionality that may facilitate compliance with the VRRA, CVRA, and AG
Guidelines.

Incomplete Victim Information in VNS for Multi-Agency Cases

       Currently, when a new case is entered into the USAOs’ case management
system the user is required to select a lead investigative agency. If the lead
investigative agency uses the VNS, the VNS system receives an alert that data will
need to be linked between the VNS and the lead investigative agency’s case
management system. When an agency that does not use the VNS is listed as the
lead agency, rather than the agency using the VNS, the VNS will not link the victim
data. When the victim data is not linked, the Victim-Witness Coordinator must
re-enter victim data into the VNS. This creates duplication of efforts and the
potential for notification delays.

       We found that the lead agency can be changed to an agency which uses the
VNS, even if it was not officially the lead agency during the investigation. This
would be done to ensure the victim data entered by an agency using the VNS links
to the USAOs’ case management system. However, the practice of changing the
lead agency field impacts the integrity of the USAOs’ case management system
data and the statistics reported based on the lead agency. As more agencies
implement the use of the VNS, there is an increased risk that victim data will not be
linked through the VNS if the agency using the VNS is not designated as the lead

       27
          Due to limitations in the accounting records maintained by the FBI, we were unable to
perform a complete analysis of overhead costs for FYs 2010 and 2011.


                                                16

agency, or if multiple agencies using the VNS have identified victims. Currently,
the FBI, USAOs, BOP, USPIS, and ATF are the only agencies using the VNS.
However, efforts are underway make the VNS available to other federal agencies,
such as the U.S. Parole Commission.

       The FBI told us that when they are working a joint investigation with the
USPIS or ATF, only the agency designated as the lead agency should be entering
victim information into the VNS. However, the USAOs do not always communicate
which agency has been designated as the lead agency, which would facilitate the
FBI Victim Specialist’s coordination with the other investigative agency to ensure all
victims are being notified. This lack of communication results in both agencies
entering victim information into the VNS. Once the case transitions to the USAO,
the FBI Victim Specialist continues to monitor the case in VNS to ensure it is
properly indicted and the notifications are made. If the FBI is not selected as the
lead agency in the USAOs’ case management system, the FBI Victim Specialist’s
information in the VNS is never updated to reflect an indictment or show
notifications were made. This means that the FBI Victim Specialist’s victims do not
receive notices unless the same victims were identified by the USPIS or ATF.

Access to Global Cases in VNS

       In FY 2012, EOUSA implemented the use of Global Cases in the VNS. Global
Cases were created to establish one record for victims involved in multiple child
pornography cases. These victims often had hundreds or thousands of case records
in the VNS because multiple USAOs created a new record in the VNS for each case
involving the same victim. Currently, any case categorized as a “Project Safe
Childhood” case in the USAOs’ case management system is designated as a Global
Case in the VNS. For example, a child molestation case that does not involve child
pornography and will likely not have additional defendants in other districts is still
designated as a Global Case because it is categorized as a “Project Safe Childhood”
case. Only the VNS Project Manager at EOUSA and the VNS Coordinators at the
FBI, USPIS, and BOP have been designated to edit Global Cases. Therefore,
Victim-Witness Coordinators do not have the ability to edit Global Cases in order to
update the victim’s contact information or address to ensure notifications are
received. This can cause delays in notifications to victims since the records cannot
be updated immediately.

       To enhance the functionality of the VNS, we recommend that EOUSA ensure
that victim data provided by all agencies participating in VNS can be automatically
and accurately linked to the USAOs’ case management system information.
Additionally, we recommend that EOUSA evaluate potential enhancements to the
VNS access that would allow more edit flexibility for cases designated as Global
Cases to reduce the risk of delayed notifications.28




        28
           Subsequent to our review, EOUSA told us that the VNS was upgraded in January 2014 to
allow greater edit flexibility for cases designated as Global Cases.


                                               17

Improved Performance Reporting

        The Director of the OVC has the responsibility for monitoring Department
compliance with the AG Guidelines. Components must report their compliance to
the Attorney General, through the OVC Director, using the Annual Compliance
Report, which includes the number of crime victims services provided. To compile
the required information, we found that EOUSA requests data from the USAOs
annually using a “Best Efforts Report” completed by each USAO. The
Victim-Witness Coordinators at each USAO provide their own statistics related to
the number of services provided, which is compiled into one report for the district
and submitted to EOUSA. EOUSA compiles the “Best Efforts Reports” submitted by
all districts for the Annual Compliance Report. We determined that the victim
services statistics reported by the Victim-Witness Coordinators do not appear to
accurately reflect the services provided.

       To compile the statistics related to services provided, Victim-Witness
Coordinators use a variety of sources, including monthly calendars, call logs, and
monthly direct services spreadsheets, which were developed by EOUSA to assist
Victim-Witness Coordinators with tracking. During our review, we found that there
is no standard data collection method and no standard guidance provided to
Victim-Witness Coordinators regarding what should be counted as a victim contact.
According to EOUSA officials, they are working with the OVC to develop guidance.

        Also, we found that each USAO is required to prepare “Best Efforts Reports”
annually. To compile the data for the report, Victim-Witness Coordinators try to
recollect what services they provided over the last year. During our interviews with
Victim-Witness Coordinators, they stated that the statistics they reported were
most likely underreported due to the inability to recall all work performed over the
previous 12 months. Additionally, if Victim-Witness Coordinators leave their
position prior to providing statistics to include in the “Best Efforts Reports”, the
services provided by those Victim-Witness Coordinators are not captured in the
Annual Compliance Report. We judgmentally sampled 19 USAOs and reviewed the
“Best Efforts Reports” for 66 Victim-Witness Coordinators in FYs 2009 and 2010 and
69 Victim-Witness Coordinators in FY 2011 to verify the Victim-Witness
Coordinators funded by the CVF reported statistics. We found 1 Victim-Witness
Coordinator did not report statistics in FY 2009, 9 Victim-Witness Coordinators did
not report statistics in FY 2010, and 5 Victim-Witness Coordinators did not report
statistics in FY 2011.29 It therefore appears the data reported to the OVC by the
Victim-Witness Coordinators is not complete or accurate, which limits the OVC’s
ability to properly monitor the Department’s compliance with the AG Guidelines.




        29
            Five of the missing statistics relate to personnel who each accounted for at least half of a
FTE covered with CVF funds for the year. The remaining 10 relate to personnel who each accounted
for less than half of a FTE covered with CVF funds for the year.


                                                   18

Discrepancies between Data Reported in the Annual Compliance Reports

       We also found differences between the FBI Victim Specialists and
Victim-Witness Coordinators at the USAOs regarding data reported in the Annual
Compliance Report. The FBI OVA requires FBI Victim Specialists to submit
electronic Monthly Accomplishment Reports (eMAR). These reports track the direct
services provided to victims for the month. During our interviews with FBI Victim
Specialists, we found that Victim Specialists collect information for their statistics
using day planners, blackberries, and monthly calendars. Using that information,
the FBI Victim Specialists complete their eMAR at the end of the month to submit to
the FBI OVA. The FBI OVA then compiles the eMARs to complete the Annual
Compliance Report.

        A specific performance category in the Annual Compliance Report provided to
the OVC by the FBI and EOUSA is the number of direct services provided to victims.
This includes each time a victim is assisted with obtaining counseling, medical care
referrals, accompanying victims to court proceedings, and obtaining state victim’s
compensation funding. We found that FBI Victim Specialists report direct services
provided in 45 categories, while the Victim-Witness Coordinators report direct
services in 4 categories.30 For example, in FY 2011, Victim-Witness Coordinators
reported making a total of 232,794 direct contacts with victims and 21,254 referrals
for counseling, access to medical care, assistance with accessing victim’s
compensation programs, applying for continued presence and other immigration
relief, assistance with victim employers or creditors, and translation and interpreter
services. Additionally, Victim-Witness Coordinators accompanied over 28,000
victims to court hearings and trials and attended approximately 14,200 hearings on
behalf of victims unable to attend. In comparison, the 213,402 services that the
FBI Victim Specialists reported having provided in FY 2011 were broken down into
45 categories of services, including: 6,991 counseling referrals; 1,366 medical care
referrals; 5,038 victim’s compensation programs application assistance;
1,042 continued presence assistance; 1,030 employer or creditor assistance;
487 interpreter services; and 1,276 accompaniments to court proceedings.

       The differences between reported data in the Annual Compliance Reports
make it more difficult to analyze the statistics, in part because the FBI collects data
in categories that are not directly comparable to EOUSA data. For this reason, we
recommend that the FBI, EOUSA, and OVC collaborate to develop more uniform
reporting standards. We also recommend that EOUSA enhance its performance
reporting to ensure the data reported to the OVC is accurate and complete,
including increasing the consistency and frequency of reporting to EOUSA and
developing procedures to ensure employees report statistics prior to departure.




       30
           The four categories tracked by Victim-Witness Coordinators included: (1) victim contact by
phone, e-mail, or in person; (2) court accompaniment with victim; (3) court attendance on behalf of
victims unable to attend in person; and (4) victim referrals to services.


                                                 19

Conclusion

       Our review did not identify any significant non-compliance with the rules,
regulations, and guidelines governing the performance of the CVF funded positions
or the VNS while providing services to federal victims of crime. However, we
identified areas or improvement that may facilitate compliance with federal victims’
services and rights laws or result in increased efficiencies in the time and resources
spent providing services to victims.

       During the transition process of cases from investigative agencies to USAOs,
we found that Victim-Witness Coordinators are not always provided complete and
accurate victim information in a timely manner. As a result, there is an increased
risk that victims will not be afforded their rights under the CVRA or provided
services under the VRRA. Specific to the transition of cases from the FBI to the
USAOs, we found that (1) victim data was not always transferred through the VNS
to the Victim-Witness Coordinators timely or accurately, and (2) FBI Victim
Specialists and Victim-Witness Coordinators did not always coordinate during the
transition process to provide victims with the services required by federal law and
the AG Guidelines. As a result, there is an increased risk of victim notification
delays, duplication of services, or inconsistencies in the referrals provided to meet
the interests of the victims.

       Because EOUSA failed to fill 12 Victim-Witness Coordinator positions assigned
to Indian Country, we found that EOUSA may not have sufficient resources
assigned to Indian Country to address additional challenges in providing services to
victims. We also found that the coordination between FBI and EOUSA could be
enhanced for victims in Indian Country to ensure victims are provided services and
afforded their rights as well as encouraged to participate in the judicial process.
This includes using OTJ as a resource for developing best practices and policies and
promoting coordination with other federal agencies working in Indian Country.

       We also identified differences between the CVF funded FTE programs at the
FBI and EOUSA, including position requirements, services provided, and financial
differences. While we acknowledge the requirements may be different for each FTE
program, if the OVC does not establish requirements for the FTE programs,
disparities may emerge. We did not assess whether one program performed more
effectively. Our purpose was solely to identify differences that exist between the
FTE programs.

        Specific to the VNS, we found that the VNS cannot properly link data from
multiple participating agency’s case management system to the data from the
USAOs’ case management system such that it: (1) maintains the accuracy of the
USAOs’ case management system and (2) avoids duplication of services by the
Victim-Witness Coordinators, who would otherwise need to re-enter victim data into
the VNS. We also found that, for Global Cases in the VNS, edits can only be made
by one person from each agency, which can cause delays in notifications to victims
if that person is unavailable when records require updating.



                                          20

        Finally, we found the performance data reported by EOUSA was not accurate
due to deficiencies in the reporting policies and frequency of reporting. We also
found differences between the statistics reported by the FBI Victim Specialists and
Victim-Witness Coordinators that make assessing program performance more
difficult.

Recommendations

We recommend that EOUSA:

   1. Work with each investigative agency, including the FBI, to develop a process
      that ensures Victim-Witness Coordinators are notified and provided
      comprehensive victim information as soon as a case involving victims is
      transitioned to the USAOs.

   2. Evaluate the adequacy of the resources assigned to assist victims in Indian
      Country and ensure that any future opportunities to increase the level of
      support in Indian Country are appropriately pursued.

   3. Ensure that victim data provided by all agencies participating in the VNS can
      be automatically and accurately linked to the USAOs’ case management
      system information and evaluate potential enhancements the VNS access
      that would allow more edit flexibility for cases designated as Global Cases.

   4. Improve performance reporting to ensure the data reported to the OVC is
      accurate and complete, including increasing the consistency and frequency of
      reporting to EOUSA and developing procedures to ensure employees report
      statistics prior to departure.

We recommend that EOUSA and the FBI:

   5. Enhance coordination efforts to ensure case transitions to the USAOs are
      accomplished in a timely, complete, and accurate manner; that all parties are
      aware of the services the FBI Victim Specialists have already provided or
      may continue to provide at the request of the victim; and that current
      contact information for the FBI Victim Specialists and Victim-Witness
      Coordinators at the USAOs is exchanged. Additionally, coordination efforts
      should be enhanced to improve the delivery of victim services in Indian
      Country, including using OTJ as a resource for developing best practices and
      policies and promoting coordination with other federal agencies working in
      Indian Country.

We recommend that the FBI, EOUSA, and OVC:

   6. Discuss the need to better align the CVF funded FTE programs and, if
      necessary, collaborate to establish requirements for the FTE positions that
      ensure employees possess the necessary skills to support victims of crime so
      that the highest quality of services are being provided to victims of crime..


                                        21

7. Collaborate to develop more uniform reporting standards for performance
   statistics.




                                    22

II. 	   INADEQUATE INTERNAL CONTROLS OVER THE CVF FUNDS
        ADMINISTERED BY EOUSA

        We found that EOUSA’s internal controls were not adequate to manage
        CVF funds and ensure compliance with all applicable laws, regulations,
        and guidelines. This resulted in inaccurate tracking and documenting
        of CVF funds; inaccurate reporting to the OVC of total expenditures
        relating to both Victim-Witness Coordinator funding and VNS funding;
        improper use of CVF funds by the USAOs for Victim-Witness
        Coordinator funding; excess reimbursement requests for VNS funding;
        and insufficient accounting records for VNS funding. Without adequate
        internal controls, there is an increased risk that CVF funds will be
        mismanaged, misused, or not used, which ultimately affects the
        services available to victims.

Accounting and Reporting of the Victim-Witness Coordinator Funding

       Once Congress establishes the annual funding cap on the CVF, EOUSA
submits its annual request for funding to the OVC to support 170 Victim-Witness
Coordinator positions. The OVC analyzes the request and approves EOUSA’s
funding level for the year. Generally, the OVC subtracts any unspent funding from
the previous year’s funding level.31 The difference represents new funding from the
CVF awarded to EOUSA. An IAA is then established between the OVC and EOUSA,
and EOUSA budgets CVF funds for each USAO, which is based on the number of
CVF funded FTE positions at the USAO and approximately $7,500 in non-personnel
costs for each funded position. The CVF funds are provided to EOUSA on a
reimbursement basis throughout the year as expenses are incurred.

EOUSA System for Tracking CVF Expenditures for the Victim-Witness Coordinator
Positions

       According to the IAAs, EOUSA must track and document CVF expenditures as
well as report the total quarterly and annual CVF expenditures to the OVC. Each
USAO records CVF expenditures in the Financial Management Information System.
Every quarter, this information is summarized in a report and sent to JMD finance
staff, who submits a request to the OVC for reimbursement. At the end of the fiscal
year, the final accounting detailing the expenditure of funds must be submitted to
the OVC, which uses it to determine subsequent year CVF distribution amounts.

       To ensure compliance with the IAAs’ requirement to track and document CVF
expenditures for FYs 2009 through 2011, we requested accounting records from
EOUSA for the funding received to support the 170 Victim-Witness Coordinator
positions. We compared CVF expenditures to the total expenditures reported to the
OVC and identified differences between the total CVF expenditures in the

        31
           For FYs 2009 through 2011, the carryover funding reduced the amount of new CVF funding
to the FBI OVA. However, in FY 2012 the OVC did not subtract the carryover funding from the total
CVF distribution amount in an effort to compensate EOUSA for an 8.1 percent assessment for OJP’s
management and administrative costs that had reduced EOUSA’s funding.


                                               23

accounting records and the total CVF expenditures reported to the OVC. When
asked about the discrepancies, EOUSA officials stated that all personnel costs
associated with the 170 Victim-Witness Coordinator positions are captured under
one accounting code to ensure the time for the positions corresponds to the funding
received from the CVF when calculating total FTEs for the year. If expenditures
incurred under the CVF accounting code are in excess of the amount funded in the
IAAs, EOUSA will absorb the excess costs with direct funding. When EOUSA
submits its final request for reimbursement, it requests up to the total available
funding under the IAA.

       We reviewed the accounting records for each year to identify the total CVF
expenditures and found that the accounting records included expenses for which
reimbursement was not requested from the OVC.32 Specifically, we found: (1) in
FYs 2009 and 2010, the accounting records included compensation and benefits
payments for Victim-Witness Coordinator positions in excess of the approved
170 FTEs; (2) expenses that appear to be related to the 170 Victim-Witness
Coordinator positions for which EOUSA did not request reimbursement;
(3) expenses incurred above the total available funding for the year; and
(4) training expenses that were paid with separate funds EOUSA receives from the
CVF in addition to the 170 Victim-Witness Coordinator position funding. Although,
EOUSA did not request reimbursement for these expenses, they are still reflected in
the accounting records used to account for and track CVF funds. We also found
additional expenses in the accounting records that should not have been covered
with CVF funds.33 Therefore, we adjusted the accounting records to exclude these
costs, as shown in Exhibit 2.

       EXHIBIT 2: TOTAL CVF EXPENDITURES PER THE ACCOUNTING 

     RECORDS FOR THE 170 VICTIM-WITNESS COORDINATOR FUNDING 

                   ACCOUNTING DATA                       FY 2009       FY 2010         FY 2011
   EXPENDITURES – ORIGINAL EOUSA ACCOUNTING DATA         $22,690,988   $23,997,760   $23,448,915
   ADJUSTMENTS34                                          ($259,203)    ($623,760)     ($338,654)
   EXPENDITURES - AFTER ADJUSTMENTS                      $22,431,785   $23,374,000   $23,110,261
 Source: EOUSA

      Overall, for FYs 2009 through 2011, EOUSA did not maintain accounting
records that accurately tracked and documented CVF funds. Because expenses
covered with direct funding were captured under the same accounting code as the
CVF related expenses, we were unable to determine which specific expenses were
associated with the CVF funds and which specific expenses were associated with


       32
           EOUSA had not submitted the final reimbursement request to the OVC for FY 2011;
therefore our analysis was based on FYs 2009 and 2010.

       33
            See Appendix I for more detail.
       34
          These amounts do not take into account all of the unallowable expenditures we identified in
the subsequent section of this report. For a detailed explanation of adjustments see Appendix I.


                                                   24

direct funds. As a result, EOUSA lacked sufficient internal controls to ensure that
all requests for reimbursement of costs captured under the CVF accounting code
were proper, and that it accurately reported total expenditures to the OVC.35

Inaccurate Reporting of CVF Funds for the 170 Victim-Witness Positions

       As part of the IAAs, EOUSA must report to the OVC total CVF expenditures,
which the OVC uses to determine the amount of remaining funds for each fiscal
year, known as carryover funding.36 Reporting accurate total expenditure of funds
for the year to the OVC allows the OVC to evaluate the cost of supporting the
program for the year and assists the OVC in determining appropriate funding levels
to support subsequent year activities. EOUSA officials explained that expenditures
are reported based on subject classification codes, which summarize expenditures
into specific categories of expended funds. We reviewed the summarized
expenditure reports and found that the summary data included the excess costs
covered by direct funding. There was no way to determine which costs were
covered by direct funding and which were covered with CVF funding. Therefore,
solely relying on the summarized expenditure reports, which do not account for any
necessary adjustments, increases the risk of EOUSA reporting an inaccurate
amount for the total expenditure of funds to the OVC.

        We compared total CVF expenditures, after taking into account the
adjustments made to identify CVF expenses, to the total expenditure of funds
reported to the OVC. We found that in FYs 2009 and 2011, EOUSA over reported
its total expenditure of funds by $228,483 and $329,539, respectively, and
therefore under reported the carryover amount by the same amount.37 Because
the OVC uses the total carryover amount from the current year to determine the
funding levels received by EOUSA in the subsequent year, this resulted in EOUSA
potentially receiving $228,483 and $329,539 in excess CVF funds in FYs 2010
and 2012, respectively. Also, since the annual distribution of new CVF funds to
EOUSA is made before state and local victim assistance programs, inaccurate
reporting by EOUSA potentially affects the amount of funding provided to state and
local programs in subsequent years.

       Although the total amount of carryover reported to the OVC was only under
reported by approximately 1 percent of EOUSA’s total CVF distribution amount, we
believe the deficiencies with the accounting system and controls in place at EOUSA,



       35
          During our review of the total reimbursements requested by EOUSA from the OVC for
FYs 2009 through 2011, we did not identify any significant excess reimbursement requests.

       36
            The carryover amount is an estimate based on the accounting records at the time of
reporting. After reporting, the carryover amount fluctuates as obligations adjust upward or downward
until they are completely expended and closed.
       37
           These amounts do not take into account the unallowable expenditures we identified in the
following section of this report. These unallowable costs also caused EOUSA to over report total
expenditures as these costs were not in compliance with the IAA.


                                                25

if not addressed, create the potential for material misstatements to occur in the
future.

Improper Use of CVF funds for the Victim–Witness Coordinator Positions Due to
Inadequate Internal Controls over the CVF Funds

      The IAAs between EOUSA and the OVC provide a list of unallowable costs to
ensure expenses not directly related to maintaining the 170 Victim-Witness
Coordinator positions are not paid using CVF funds. We found that EOUSA did not
adequately manage the CVF funds or provide sufficient guidance to the USAOs to
ensure compliance with the IAAs. This resulted in CVF funds being used for costs
that were specifically unallowable under the IAAs.

       Based on our analysis of the accounting records at the 19 USAOs
judgmentally selected for review, we found CVF expenditures that were specifically
unallowable as stated in the IAAs. USAO officials provided the OIG with the
guidance from EOUSA that stated anything related to the Victim-Witness Program
was allowable. The guidance was not specific enough to ensure CVF funds were
spent in accordance with the IAAs. As a result, the USAOs were not aware that
some costs incurred were unallowable.38

       We also reviewed the accounting records for all expenses captured under the
CVF accounting code to identify unallowable expenses. As explained previously,
EOUSA captures all costs associated with the 170 Victim-Witness Coordinator
positions under the one accounting code, even if the total costs exceed the total
available funding for the year from the CVF. Because there is no way to attribute
specific costs to CVF funding or direct funding, we reviewed all expenses charged to
the CVF accounting code to determine allowability. Our analysis identified expenses
that were unallowable under the IAA relating to personnel not funded with CVF
funds, such as expenses for payroll, travel, training, and supplies. Overall, we
identified $194,032 in FY 2009, $87,444 in FY 2010, and $403,571 in FY 2011 as
unallowable costs related to the funding provided to EOUSA for the
170 Victim-Witness Coordinator positions.39

        These amounts included CVF expenses for victim notification efforts that the
IAAs state should be paid using the separate VNS funding provided to EOUSA. OVC
officials explained that the intent of this criterion was to prevent the use of
Victim-Witness Coordinator funding to support the VNS. Based on the terms of the




       38
           EOUSA told us that subsequent to our review, it provided updated guidance to each USAO
to provide more detailed information on what are allowable and unallowable CVF expenses.

         39
            During our review, we identified $67 in expense related to travel for FY 2009 and $3,607 in
expenses related to travel, equipment, and supplies for FY 2010, which the USAOs did not provide
sufficient support. These amounts were included in the total costs questioned in Appendix II. The
unallowable expenses identified may have been related to Victim-Witness Program activities and in
compliance with the VOCA. However, the expenses were not permitted under the IAA.


                                                  26

agreement, any costs associated with victim notification efforts appear to be
unallowable and have been included in our total questioned costs.40

       Although the total dollar value of unallowable costs represents approximately
1 percent of the total available funding for the Victim-Witness Coordinator positions
each year, we recommend that EOUSA improve its internal control over the CVF
funds to ensure expenses are allowable and in compliance with all applicable laws,
regulations, and guidelines. This includes improving the tracking system to ensure
that CVF expenses can be identified for reporting total expenditures and requesting
reimbursements and that adequate guidance is provided to USAOs to ensure
expenses incurred using the Victim-Witness Coordinator funding are allowable. We
also recommend that the OVC remedy $685,047 in unallowable costs from the
Victim-Witness Coordinator funding and $3,674 in unsupported costs from the
Victim-Witness Coordinator funding.

Accounting and Reporting of the VNS Funding

      Once Congress establishes the annual funding cap on the CVF, EOUSA
submits its annual request for funding to the OVC to support the VNS. The OVC
analyzes the request and approves the VNS funding level for the year. Generally,
the OVC adds any unspent funding from the previous year’s funding level, known as
carryover funding, from the total requested amount. The approved funding level
represents the sum of the new funding from the CVF awarded to the EOUSA and
the carryover funding from the previous year. The CVF funds are provided to
EOUSA on a reimbursement basis throughout the year as expenses are incurred.
During our review of EOUSA’s accounting records, reimbursement requests, and
reported expenditure of funds to the OVC, we found that the accounting records for
the VNS do not accurately reflect CVF expenditures. As a result, EOUSA could
inappropriately request reimbursement from the OVC and inaccurately report total
expenditures for CVF funds to the OVC.

Reimbursements Requested from the OVC under the VNS Program

      To ensure compliance with the IAAs requirement to track and document CVF
expenditures, we requested accounting records from EOUSA for the VNS funding for
FYs 2009 through 2011. We compared CVF expenditures for the VNS to total OVC
reimbursements for FYs 2009 through 2011.

       We found that for FYs 2009 and 2010, EOUSA had incurred more CVF
expenditures than it requested for reimbursement. EOUSA officials stated that the
total expenditures reflect all expenses incurred to date as well as all outstanding
obligations. EOUSA will only request reimbursement for incurred expenses; this
includes expenses in the accounts payable or paid status. Therefore, EOUSA does


       40
           EOUSA told us that beginning in FY 2013 and continuing in FY 2014, it worked closely with
the OVC to update the language in the IAAs to ensure compliance with rules and regulations related to
this funding. A majority of these updates address items from previous years that were identified as
unallowable.


                                                 27

not receive reimbursement for outstanding obligations until it receives a final
invoice.

       As of April 2012, we compared the total expenses eligible for reimbursement
to the amount reimbursed by the OVC and did not find any discrepancies. We also
compared the total amount reimbursed by the OVC to the total available funding.
In FY 2009, the accounting records reflected $1,291,500 more in expenses than
reimbursements requested. As previously explained, any costs incurred above the
available funding are paid with direct funds by EOUSA. Because expenses covered
with direct funding are captured under the same accounting code as CVF related
expenses, it is not possible to determine which expenses for the year were covered
with CVF funds and which were covered with direct funds. This increases the risk of
EOUSA requesting reimbursement for costs that are inappropriately captured under
the CVF accounting code.

        In FY 2009 EOUSA was reimbursed for $6,799,522 in CVF funds. However,
the total funding available to EOUSA was $6,675,839, which included $5,000,000 in
new funding and $1,675,839 in carryover funding from FY 2008. Therefore, EOUSA
received $123,683 more in CVF funds than the IAA permitted.41 OVC officials
stated that the carryover figure is an estimate, which cannot be truly accurate until
all obligations are closed. Until that time, the reported carryover figure fluctuates.
According to OVC officials, the final amount of CVF funds provided to EOUSA for
FY 2009 was based on the best available information EOUSA had at the time and
the $123,683 in additional CVF funds EOUSA received was the result of an increase
in the previous year’s carryover funds. However, we were not provided any
documentation to indicate an adjustment was made to increase the level of funding
in the IAA.

Inaccurate Reporting of CVF Funds for the VNS Program

       Similar to the Victim-Witness Coordinator funding, the IAAs for the VNS
requires EOUSA to report to the OVC total CVF expenditures, which the OVC uses to
determine the amount of remaining funds for each fiscal year, known as carryover
funding. Reporting accurate total expenditure of funds for the year to the OVC
allows the OVC to evaluate the cost of supporting the program for the year and
assists the OVC in determining appropriate funding levels to support subsequent
year activities.

      We compared the total expenditures per the accounting records to the total
expenditure of funds reported to the OVC. We found EOUSA reported $29,475
more in FY 2010 and $65,726 more in FY 2011 in total expenditure of funds to the
OVC than the accounting records supported. Therefore, EOUSA under reported the




       41
           Although we did not specifically test transactions comprising the $123, 693 in additional
funds received, our judgmental sample selection for the VNS funding was based on the total
expenditures per the accounting records, which included this amount for FY 2009.


                                                  28

carryover amount to the OVC by the same amount.42 Reporting accurate total
expenditure of funds for the year to the OVC allows the OVC to evaluate the cost of
supporting the program for the year and assists the OVC in determining appropriate
funding levels to support subsequent year activities.

Insufficient Accounting Records for the VNS Program

      In FYs 2009 through 2011, EOUSA provided funding to the FBI, BOP, and
USPIS through reimbursable agreements to support a VNS Coordinator in each
agency to provide VNS support to agency users. We identified $387,254 in
FY 2009, $405,350 in FY 2010, and $418,716 in FY 2011 in funding for the VNS
Coordinator positions for which EOUSA could not provide comprehensive accounting
records.43

       The IAAs between EOUSA and the OVC require that EOUSA use the funds
exclusively for the cost of maintenance and operation of the VNS and provide the
OVC with comprehensive financial accounting of the project. If EOUSA cannot
obtain adequate documentation from the FBI, BOP, and USPIS, it cannot ensure
funds are properly used and cannot provide comprehensive accounting to the
OVC.44

       Based on our review of EOUSA accounting and reporting of VNS
expenditures, we recommend that EOUSA improve its internal control over the CVF
funds to ensure it is in compliance with all applicable laws, regulations, and
guidelines. This includes improving the tracking system to ensure that CVF
expenses can be identified for reporting total expenditures and requesting
reimbursements and that EOUSA require supporting documentation before
reimbursements are made to the FBI, BOP, and USPIS. We also recommend that
the OVC remedy $2,678 in unsupported costs from the from the VNS funding.

Conclusion

       Mismanagement, misuse, and non-use of CVF funds decrease the amount of
assistance that reaches victims of crime. Our review of EOUSA’s accounting and

       42
            The carryover amount is an estimate based on the accounting records at the time of
reporting. After reporting, the carryover amount fluctuates as obligations adjust upward or downward
until they are completely expended and closed.
       43
           These figures include the CVF funds provided to the FBI to support the FBI VNS Coordinator
position. The CVF funding provided to the FBI was within the scope of our audit; therefore, we
obtained the accounting records related to the FBI VNS Coordinator directly from the FBI. The
accounting records supported $147,156 in FY 2009, $152,240 in FY 2010, and $146,516 in FY 2011 in
costs associated with the FBI VNS Coordinator. EOUSA could not provide accounting records for any
of the VNS Coordinator positions; therefore, the amounts above include CVF funds provided to the
FBI. In addition to the VNS Coordinator positions expenses, we identified $2,678 in unsupported costs
during our review related to travel and other VNS expenses. These amounts were included in the total
cost questioned in Appendix II.
         44
            During our review of a sample of transactions for FYs 2009 through 2011, we did not
identify any significant misuse of funds under the VNS program.


                                                 29

reporting of CVF funds found inadequate internal controls to ensure EOUSA is in
compliance with the requirements under the interagency agreement. Specifically,
we found CVF funds that were not properly tracked and documented in FYs 2009
through 2011; $685,047 from the Victim-Witness Coordinator funding that was
expended on unallowable items; and insufficient accounting records for the CVF
funds provided to support VNS Coordinator positions at the FBI, BOP, and USPIS.

       As a result of the inadequacies related to the tracking system, annual CVF
expenses, as well as the annual carryover amounts for the Victim-Witness
Coordinator funded, were not accurately reported to the OVC. The carryover
amount was under reported by approximately $228,483 in FY 2009 and $329,539
in FY 2011. Additionally, EOUSA received funds from the OVC of approximately
$123,683 in FY 2009 in excess of the IAA. EOUSA also under reported the
carryover amount for the VNS funding by $29,475 in FY 2010 and $65,726 in
FY 2011.

       EOUSA’s inadequate accounting, administration, and reporting of CVF
expenditures resulted in an increased risk for the misuse of CVF funds, the failure
to pursue appropriate reimbursements for expenditures from the OVC, and the
potential for material misstatements of total expenditures in the future that could
lead the OVC to award EOUSA additional CVF funds beyond what it would otherwise
receive. Although the total amount of carryover reported to the OVC was under
reported by approximately 1 percent in relation to overall value of the
CVF distribution amounts, we believe that the deficiencies with the accounting
system at EOUSA increases the risk for material misstatements to occur in the
future. Moreover, because annual accounting of CVF expenses and remaining funds
are used to determine subsequent year CVF distribution amounts, inaccurate
reporting of expenses results in EOUSA not receiving the appropriate amount of
money from the CVF. In addition, because the VOCA directs that CVF funds be
distributed to the state and local programs based on available funding after EOUSA
receives its annual distribution, improper accounting of expenses by EOUSA
potentially affects the funding levels received by state crime victim programs, and
consequently to affect the services available to victims.

Recommendations

We recommend that EOUSA:

   8.	   Implement internal controls to ensure EOUSA and the USAOs are in
         compliance with all rules, regulations, and guidelines related to the
         administration of CVF funds and ensure CVF funds are accurately
         accounted, properly expensed, accurately reported to the OVC. This
         includes improving the tracking system to ensure that CVF expenses can be
         identified for reporting total expenditures and requesting reimbursements;
         that adequate guidance is provided to USAOs to ensure expenses incurred
         using the Victim-Witness Coordinator funding are allowable; and that
         supporting documentation from the FBI, BOP, and USPIS is provided prior
         to making reimbursement payments for VNS-related expenses.


                                        30

We recommend that the OVC:

  9.	   Remedy $685,047 in unallowable costs from the Victim-Witness

        Coordinator funding 


  10.	 Remedy $3,674 in unsupported costs from the Victim-Witness Coordinator
       funding and $2,678 from the VNS funding.




                                       31

                 STATEMENT ON INTERNAL CONTROLS

       As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit objectives.
A deficiency in an internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing their
assigned functions, to prevent or detect in a timely manner: (1) impairments to
the effectiveness and efficiency of operations, (2) misstatements in financial or
performance information, or (3) violations of laws and regulations. Our evaluation
of the Executive Office for United States Attorneys’ (EOUSA) internal controls over
funds from the Crime Victims Fund (CVF) was not made for the purpose of
providing assurance on their internal control structures as a whole. EOUSA’s
management is responsible for the establishment and maintenance of internal
controls.

      As discussed in our report, EOUSA needs to improve its internal controls to
ensure that it is in compliance with all rules, regulations, and guidelines related to
the administration of CVF funds, and to ensure that it accurately and reliably tracks
and reports CVF expenditures.

      Because we are not expressing an opinion on the internal control structure of
EOUSA as a whole, this statement is intended solely for the information and use of
the auditee. This restriction is not intended to limit the distribution of this report,
which is a matter of public record.




                                          32

                  STATEMENT ON COMPLIANCE WITH 

                      LAWS AND REGULATIONS 


       As required by the Government Auditing Standards, we tested, as
appropriate given our audit scope and objectives, selected transactions, records,
procedures, and practices to obtain reasonable assurance that the FBI, EOUSA, and
OVC management complied with federal laws and regulations for which
noncompliance, in our judgment, could have a material effect on the results of our
audit. Management at the FBI, EOUSA, and OVC is responsible for ensuring
compliance with federal laws and regulations applicable to the Department of
Justice. In planning our audit, we identified the following laws and regulations that
concerned the operations of the auditee and that were significant within the context
of the audit objectives:

      42 U.S.C. §§ 10601-10607 (2012)
      18 U.S.C. § 3771 (2012)
      28 C.F.R. §45.10 (2012)

       Our audit included examining, on a test basis, the compliance with the
aforementioned laws and regulations by the FBI, EOUSA, and OVC, and whether
non-compliance could have a material effect on operations at the FBI, EOUSA, and
OVC. We did so by interviewing auditee personnel, assessing internal control
procedures, and examining accounting records and performance reports. As noted
in the Findings and Recommendations section of this report, we found limited
instances where EOUSA did not afford victim’s rights or provide services to victims
to comply with 18 U.S.C. § 3771 or 42 U.S.C. § 10601.




                                         33

                                                                    APPENDIX I

              OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

       The objectives of our audit were to: (1) verify that services were provided to
victims in accordance with applicable guidelines, policies, and procedures for each
CVF funded full-time equivalent (FTE) program and the Victim Notification System
(VNS), including identifying any potential overlap between the funded positions;
(2) evaluate whether the funds allocated to Executive Office for United States
Attorneys (EOUSA) during fiscal years (FY) 2009 through 2011 to administer the
Crime Victims Fund (CVF) funding for the Victim-Witness Coordinator positions and
the VNS were used in accordance with applicable guidelines; and (3) evaluate the
adequacy of current internal controls, policies and procedures, and coordination
efforts of EOUSA, U.S. Attorneys’ Offices (USAO), and Office for Victims of Crime
(OVC) to ensure the funds from the CVF for the Victim-Witness Coordinator
positions and the VNS were completely and appropriately accounted for.

Scope and Methodology

       We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

       Our audit generally covered, but was not limited to, FYs 2009 through 2011,
and included three Department of Justice (Department) components: (1) the
Federal Bureau of Investigation (FBI); (2) EOUSA, which provides administrative
support for the 93 United States Attorneys; and (3) the OVC, within the Office of
Justice Programs (OJP).

Performance under the FTE Programs

       To evaluate performance under each of the CVF funded FTE programs, we
conducted interviews with: (1) a judgmentally selected sample of FBI Victim
Specialists at 7 FBI field offices and Victim-Witness Coordinators at 19 USAOs;
(2) EOUSA officials in Washington, D.C. responsible for the Victim-Witness
Coordinator Program oversight, (3) FBI officials in in Washington, D.C. responsible
for the FBI Victim Specialist Program oversight, (4) OVC officials responsible for the
oversight of the CVF funded programs, and (5) Office of Tribal Justice (OTJ) officials
responsible for promoting uniformity of Department policies relating to Indian
Country and coordinating with federal agencies regarding tribal initiatives. During
these interviews, we discussed the transition of cases from the investigative
agencies to the USAOs, the VNS, coordination efforts between the various agencies,
services in Indian Country, and policies and procedures for performance reporting.

                                         34

       The sample of 19 USAOs was judgmentally selected to evaluate the
administration of the CVF funds. In addition to reviewing accounting records at the
19 USAOs, we conducted interviews with 36 Victim-Witness Coordinators to assess
performance. For more detailed information regarding the selection process see
the Improper Use of CVF funds for the Victim–Witness Coordinator Positions Due to
Inadequate Internal Controls section. From a judgmental sample of 7 FBI field
offices, we interviewed 10 FBI Victim Specialists. The FBI field offices were selected
based on geographic distribution and number of Victim Specialists assigned to the
FBI field office. The following is the list of 7 FBI field offices:

         Minneapolis, MN

         Seattle, WA

         Salt Lake City, UT

         Columbia, SC

         New Haven, CT

         New Orleans, LA

         Denver, CO

        We evaluated the Annual Compliance Reports submitted by the FBI and
EOUSA for FYs 2009 through 2011, specifically, the direct services statistics
included in the reports. We also reviewed the “Best Efforts Reports” submitted by
the 19 USAOs for 66 Victim-Witness Coordinators in FYs 2009 and 2010 and
69 Victim-Witness Coordinators in FY 2011. Each fiscal year, EOUSA provides the
OVC with the list of 170 Victim-Witness Coordinator FTE positions that will be
supported with CVF funds. To ensure all CVF funded Victim-Witness Coordinator
positions reported statistics for FYs 2009 through 2011, we compared the list of
170 Victim-Witness Coordinator FTE positions to the Victim-Witness Coordinator
statistics reported in “Best Efforts Reports”.

      Finally, we reviewed the complaints filed with the Victim’s Rights
Ombudsman Department within EOUSA during FYs 2009 through 2011 to identify
any non-compliance by Victim-Witness Coordinators at the USAOs or FBI Victim
Specialists. We reviewed the case files for each compliant filed against a USAO or
the FBI to identify any complaints specific to Victim-Witness Coordinators at the
USAOs or FBI Victim Specialists.

Performance under the VNS Program

      We conducted a site visit to the USAO for the District of Kansas, where the
VNS Project Manager is located. We interviewed the VNS Project Manager and were
provided a tutorial of the VNS system. A contractor is used for the maintenance
and operations of the VNS. We analyzed the contract modifications, task orders,
                                         35

and task order modifications to assess the contractor’s performance. We also
reviewed the contractor’s performance statistics to ensure the contractor met the
performance requirements outlined in the contract.

EOUSA’s Administration of the CVF Funding for the Victim-Witness
Coordinator Program and the VNS Program

        To assess the design and implementation of EOUSA’s internal controls over
the CVF funds, we identified applicable rules, regulations, and guidelines, reviewed
EOUSA’s policies and procedures for administering the funds, and interviewed
officials at EOUSA, the 19 USAOs, and OVC. We also tested internal controls that
we considered significant within the context of our audit objectives. During our
analyses, we used the accounting records downloaded from the Financial
Management Information System for FYs 2009 through 2011 for the Victim-Witness
Coordinator funding and the VNS funding.

EOUSA System for Tracking CVF Expenditures for the Victim-Witness Coordinator
Positions

       To ensure compliance with the interagency agreements (IAA) requirement to
track and document CVF expenditures for FYs 2009 through 2011, we requested
accounting records from EOUSA for the funding received to support the
170 Victim-Witness Coordinator positions. The accounting records were generated
using EOUSA's accounting system, the Financial Management Information System
(FMIS). We assessed the reliability of the computer processed data. First, we
reviewed the Office of the Inspector General (OIG) Offices, Boards and Divisions
(OBDs) Annual Financial Statements reports for FYs 2009 through 2011. For each
report, the audit resulted in unqualified opinions on the financial statements. An
unqualified opinion means that the financial statements present fairly, in all
material respects, the financial position and the results of the entity's operations in
conformity with U.S. Generally Accepted Accounting Principles. The auditors also
noted that testing did not identify any instances of non-compliance with (1) federal
financial management system requirements, (2) applicable federal accounting
standards, or (3) application of the U.S. Standard General Ledger at the transaction
level.

       Next, after receiving the accounting records for CVF expenditures for
FYs 2009 through 2011 for the Victim-Witness Coordinator funding and VNS funding
from EOUSA, for each year, we compared the total expenditures per the accounting
records to the summarized expenditure reports to ensure the accounting records
were complete. The summarized expenditure reports provide a total of all
expenditures charged to the CVF accounting code based on specific categories.
Also, for the Victim-Witness Coordinator funding, we summarized the payroll data
by employee to ensure we received payroll information for 170 Victim-Witness
Coordinators.

      Finally, for the Victim-Witness Coordinator funding and VNS funding, we
tested a judgmentally selected sample of expenditures. During our review, we did

                                          36

not identify any improperly recorded transactions. Based on the results of the OBDs
Annual Financial Statements reports, our summary review of the accounting
records, and our judgmental transaction testing, we determined that we could
reasonably rely on the data generated in FMIS and provided by EOUSA.
       	
       We compared CVF expenditures to total expenditures reported to the OVC
and identified differences between total CVF expenditures in the accounting records
and total CVF expenditures reported to the OVC. When asked about the
discrepancies, EOUSA officials stated that all personnel costs associated with the
170 Victim-Witness Coordinator positions are captured under one accounting code
to ensure the time for the positions corresponds to the funding received from the
CVF when calculating total FTEs for the year. If expenditures incurred under the
CVF accounting code are in excess of the amount funded in the IAAs, EOUSA will
absorb the excess costs with direct funding. When EOUSA submits its final request
for reimbursement, it requests up to the total available funding per the IAA.

      We reviewed the accounting records for each year to identify excess costs
and found that accounting records included expenses for which reimbursement was
not requested from the OVC. We adjusted the accounting records to identify total
CVF expenditures.

      Adjustments Made to the Accounting Records in FY 2009

       In FY 2009, the accounting records reflected $256,848 more in CVF expenses
than EOUSA had requested for reimbursement. This was attributed to:
(1) $221,579 in compensation and benefits for 4 FTEs in excess of the approved
170 FTEs, which EOUSA did not request reimbursement, (2) $5,317 in reimbursed
expenses not supported by the accounting records, and (3) $40,586 in costs for
which EOUSA did not request reimbursement. Taking into consideration these
differences, EOUSA requested reimbursement for $22,434,140 of the $23,134,638
in available funding. Although the reduction for $221,579 was made when
requesting reimbursement from the OVC, the expenses were still reflected in the
accounting records used to account for and track the CVF funds, therefore we
reduced the total expenditures in the accounting records by this amount.

       We also reviewed payroll records to identify any payments to personnel not
on the list of 170 Victim-Witness Coordinator FTE positions provided to the OVC.
We summarized the payroll records by employee to determine the total amount
paid to each employee. We compared that to the list of 170 Victim-Witness
Coordinator FTE positions. We found $69,427 in negative compensation and
benefits payments and $1,875 in positive compensation and benefits payments to
non-CVF funded positions. According to EOUSA officials, the negative salary
payments represent reversals to compensation and benefits payments that were
improperly charged to the CVF accounting code. The payments are negative
because the corrections were not identical to the original amount charged. The
positive payments included $1,052 in corrections that were not identical and $824




                                        37

for an award to an employee not on the list provided to the OVC.45 We adjusted
the accounting records to exclude the negative and positive salary payments.

       After eliminating the negative salary payments from the accounting records,
the total FTEs for FY 2009 was 174.96. The CVF funding only supported 170 FTEs.
EOUSA reduced its reimbursement request from the OVC by a total of 4 FTEs.
However, there was a remaining FTE overage of 0.96. To determine the dollar
value related to the remaining FTE overage, we calculated the average
compensation and benefits paid in FY 2009 for Victim-Witness Coordinator positions
working 2,088 hours or more to be $99,099. We therefore adjusted the accounting
records to exclude 0.96 of the average compensation and benefits, $95,136, which
was inappropriately charged to the CVF accounting code.

      EOUSA selected the compensation and benefits for 4 Victim-Witness
Coordinators to reduce for the FTE overage. We reviewed the non-personnel
expenditures to identify any payments related to these 4 Victim-Witness
Coordinators in FY 2009. For this analysis, we extracted non-personnel data for
each USAO district in which the FTE overage personnel were located. We reviewed
the description code and identified $10,040 in non-personnel costs related to
non-CVF funded personnel as a result of the FTE overage. We adjusted the
accounting records to exclude the non-personnel costs.

       Overall, taking into consideration these adjustments, the total expenses per
the accounting records should have been $22,431,785. However, the records
reflect $22,690,988 in CVF expenses.

       Adjustments Made to the Accounting Records in FY 2010

       In FY 2010 the accounting records reflected $623,760 more in CVF expenses
than EOUSA had requested for reimbursement. This was attributed to the following
items: (1) $356,560 in compensation and benefits for 5.5 FTEs in excess of the
approved 170 FTEs, which EOUSA did not request reimbursement (2) $33,087 in
costs related to a Human Trafficking conference hosted by EOUSA, which EOUSA
did not request reimbursement, (3) $198,502 in additional costs identified by
EOUSA incurred above the total available funding for the year, which EOUSA did not
request reimbursement, (4) $2, 873 in reimbursed expenses not supported by the
accounting records, and (5) $38,484 in costs incurred for which EOUSA did not

request reimbursement.46 Taking into consideration these differences, EOUSA
requested reimbursement for $23,374,000, which was the total available funding
for the year. Although the reduction for $623,760 was made when requesting
reimbursement from the OVC, the expenses were still reflected in the accounting
       45
            Differences in amounts throughout the report are due to rounding.
       46
           EOUSA receives separate funds from the CVF to provide training and technical assistance to
Victim-Witness personnel. Therefore the costs for the Human Trafficking conference were not paid
with CVF funds for the 170 Victim-Witness Program. Also, we identified $3,456 in awards to non-CVF
funded positions that EOUSA did not request reimbursement as part of the $198,502.


                                                 38

records used to account for and track the CVF funds. We reduced the total
expenditures in the accounting records by $356,560 in compensation and benefits
amount and $33,087 in costs related to a Human Trafficking conference. These
costs were identifiable in the accounting records. The other costs were not
associated with specific expenses in the accounting records.

       We also reviewed payroll records to identify any payments to personnel not
on the list of 170 Victim-Witness Coordinator FTEs provided to the OVC. We
summarized the payroll records by employee to determine the total amount paid to
each employee. We compared that to the list of 170 Victim-Witness Coordinator
FTEs. We identified $3,700 in positive compensation and benefits payments to
non-CVF funded positions paid. The positive payments included $244 in corrections
that were not identical and $3,456 for awards to employees not on the list provided
to the OVC. EOUSA identified the award payments and did not request
reimbursement from the OVC as part of the $198,502 in additional costs incurred
above the total available funding for the year. We adjusted the accounting records
to exclude all the personnel costs to non-CVF funded positions.

      EOUSA selected the compensation and benefits of 5.5 Victim-Witness
Coordinators to reduce the FTE overage. We reviewed the non-personnel costs
associated with the personnel selected to reduce the FTEs. For this analysis, we
extracted non-personnel data for each USAO district in which the FTE overage
personnel were located. We reviewed the description code and identified $23,676
in non-personnel costs related to non-CVF funded personnel as a result of the FTE
overage. We adjusted the accounting records to exclude the non-personnel costs.

       Overall, taking into consideration the adjustments, the total expenses per the
accounting records should have been $23,580,737. However the records reflect
$23,997,760 in CVF expenses. This includes $206,737 in excess funds above the
total available funding for the year.

      Adjustments Made to the Accounting Records in FY 2011

       In FY 2011, EOUSA had $441,115 more per the accounting records than
requested for reimbursement. No adjustments were made because EOUSA has not
made the final request for reimbursement. We reviewed payroll records to identify
any payments to personnel not on the list of 170 Victim-Witness Coordinator FTE
positions provided to the OVC. We summarized the payroll records by employee to
determine the total amount paid to each employee. We compared that to the list of
170 Victim-Witness Coordinator FTE positions. We found $59 in negative
compensation and benefits payments and $20,396 in positive compensation and
benefits payments to personnel not supported by the CVF funds. We adjusted the
accounting records to exclude the payments to non-CVF funded positions.

       We also found that the accounting records reflected compensation and
benefits for 3.05 FTEs in excess of the approved 170 FTEs. To determine the dollar
value related to the FTE overage, we calculated the average compensation and
benefits paid in FY 2011 for Victim-Witness Coordinator positions working
2,088 hours or more to be $104,366. We therefore adjusted the accounting
                                         39

records to exclude 3.055 of the average compensation and benefits, $318,316,
which was inappropriately charged to the CVF accounting code.

      Overall, taking into consideration the adjustments, the total expenses per the
accounting records should have been $23,110,261. However, the accounting
records reflect $23,448,915 in CVF expenses.

Inaccurate Reporting of CVF Funds for the Victim–Witness Coordinator Positions

       To determine if EOUSA had properly reported total expenditure of funds to
the OVC, we compared the total CVF expenditure of funds per the accounting
records, after taking into account the adjustments to identify CVF expenses, to the
total expenditure of funds reported to the OVC for FYs 2009 through 2011. To
calculate the total expenditure of funds reported to the OVC, we subtracted the
unspent funding reported at the end of the year, known as carryover funding, from
the total available funding for the year.

Improper Use of CVF funds for the Victim–Witness Coordinator Positions Due to
Inadequate Internal Controls

       Although we made adjustments to the accounting records to identify the total
CVF expenditures, our review to identify any improper use of CVF funds
encompassed all expenditures captured under the CVF accounting code. The IAAs
between EOUSA and the OVC include a specific list of unallowable costs to ensure
expenses not directly related to maintaining the 170 Victim-Witness Coordinator
FTE positions are not paid for with CVF funds. This list of unallowable costs
includes the following:

   	 Any additional costs related to witnesses, other than personnel time 

      associated with the 170 Victim-Witness Coordinators;


   	 Costs associated with any personnel not named on the list EOUSA provides to
      the OVC of 170 Victim-Witness Coordinators, including contractors or any
      support staff working at EOUSA headquarters to assist victim coordinators;

   	 Training costs, other than training received by personnel on the EOUSA list of
      170 positions. All other training costs must be taken from EOUSA's training
      and technical assistance fund (e.g., no training for Assistant U.S. Attorneys ,
      support staff, or facility costs);

   	 Victim notification efforts - those costs need to be taken from the VNS

      funding provided to EOUSA;


   	 Promotional or educational items associated with training initiatives should
      be used from the funding that the OVC provides to EOUSA for training and
      technical assistance;




                                         40

   	 Furniture, equipment, supplies and any other expenses not directly related to
      maintaining the personnel named in the list EOUSA provides to the OVC with
      the 170 position personnel (e.g., furniture for secure waiting rooms, furniture
      for other victim assistance personnel not named on the EOUSA list).

        To evaluate whether the CVF funds for the Victim-Witness Coordinator
funding was used in accordance with the IAAs, we judgmentally selected a sample
of 19 USAOs. Eight USAOs were selected based on the number of Victim-Witness
Coordinators funded with CVF funds at each USAO. These eight USAOs had an
average of more than 3 Victim-Witness Coordinators assigned to the USAO for
FYs 2009 through 2011. Eleven USAOs were selected using the following weighted
criteria: (1) 30 percent based on the average number of Victim-Witness
Coordinators assigned to the USAO, (2) 10 percent based on the average bonus
paid per FTE, (3) 10 percent based on the total paid to the Victim-Witness
Coordinators as a percentage of the total personnel amount paid for the District,
(4) 40 percent based on the percentage of potentially unallowable non-personnel
expenses, and (5) the remaining 10 percent was based on the average
non-personnel expense per transaction. Eleven USAOs were selected because the
USAOs were in the top 30 of all USAOs for the 5 criteria and the USAOs would
provide extensive geographic coverage. Although 11 USAOs were selected, we did
not complete testing at 2 USAOs because we determined the audit evidence
collected at the other USAOs was sufficient to support our findings. The remaining
two USAOs were chosen based on geographic location. The following is the list of
19 USAOs:

   	 District of Columbia

   	 Southern District of New York

   	 Northern District of California

   	 District of Arizona

   	 District of Oregon

   	 District of South Dakota

   	 District of Nevada

   	 Western District of Texas

   	 District of Kansas

   	 District of Alaska

   	 District of Guam

   	 Southern District of West Virginia

                                           41

      Eastern District of Virginia

      Middle District of Florida

      Southern District of Illinois

      Southern District of Ohio

      District of Massachusetts

      District of Colorado

      Western District of Missouri

       At each USAO, we judgmentally selected a sample of transactions and
reviewed supporting documentation to verify CVF funding was properly supported
and not spent on unallowable costs. To select the sample, we identified all CVF
expenses incurred for each of the 19 USAOs. We reviewed the expenses and
selected a sample of the largest transactions as well as transactions that appeared
to have an increased risk of non-compliance based on the expense description.
From our review, we identified $75,467 in FY 2009, $47,595 in FY 2010, and
$46,846 in FY 2011 in unallowable costs per the IAAs. We also conducted
interviews with the financial staff at each of the 19 USAOs to identify guidance
provided by EOUSA and policies and procedures in place to ensure compliance with
the IAAs.

       Based on the results of the testing completed at 19 USAOs, we determined
that for travel expenses the vendor code in the accounting records reflected the
employee whose travel was charged to the CVF accounting code. We examined the
accounting records for all expenses captured under the CVF accounting code to
identify travel expenses related to personnel not on the list of 170 Victim-Witness
Coordinator FTE positions provided to the OVC. After excluding travel costs
associated with the Human Trafficking Conference hosted by EOUSA in FY 2010 and
travel costs previously identified during transaction testing at the 19 USAOs, we
identified $11,515 in FY 2009, $15,749 in FY 2010, and $13,671 in FY 2011 in
travel costs associated with personnel not on the list of 170 Victim-Witness
Coordinator FTE positions provided to the OVC.

       We also calculated the total FTEs charged to the CVF accounting code for
FYs 2009 through 2011 to ensure EOUSA did not exceed the 170 Victim-Witness
Coordinator FTE positions approved in the IAA. For this, we calculated the total
number of hours charged to the accounting code and divided the total by 2,088
hours, which represents the working hours in a year. The total FTEs charged to the
CVF accounting code were 173.96 in FY 2009, 175.45 in FY 2010, 173.05 in
FY 2011. As explained previously, in FY 2009 EOUSA reduced the reimbursement
request for compensation and benefits by 4 FTEs and by 5.5 FTEs in FY 2010 as a
result of an FTE overage for each year. However, there was no adjustment for the
3.05 FTE overage in FY 2011. As explained previously, 3.05 of the average

                                        42

compensation and benefits paid in FY 2011 was $318,316, which we determined
was inappropriately charged to the CVF accounting code.

       Additionally, the FTE calculation for FY 2009 did not include the adjustment
for the negative salary payments in the accounting records. After eliminating the
negative salary payments from the accounting records, the total FTEs for FY 2009
was 174.96. After EOUSA reduced its reimbursement request by a total of 4 FTEs,
as previously stated, the remaining FTE overage of 0.96 was inappropriately
charged to the CVF accounting code. As explained previously, the dollar value
related to the FTE overage was $95,136, which was 0.96 of the average
compensation and benefits paid in FY 2009.

      We also reviewed the CVF non-personnel costs associated personnel selected
to reduce the FTEs. Because these employees were not part of the
170 Victim-Witness Coordinator FTE positions, any non-personnel expenses
associated with these employees were unallowable per the IAA. During our review,
we identified $10,040 in FY 2009 and $23,676 in FY 2010 in non-personnel costs
that were not part of EOUSA’s adjustments.

       As explained previously, we compared the total amount paid to each
employee with CVF funds to the list of 170 Victim-Witness Coordinator FTE positions
to identify any payments to personnel not on the list. We identified $1,875 in
FY 2009, $244 in FY 2010, and $20,396 in FY 2011 for positive compensation and
benefits payments to personnel not supported by the CVF funds.

       During our review of the accounting records, we identified 13 payments
made by EOUSA to support the 170 Victim-Witness Coordinator positions. We
reviewed the supporting documentation for all 13 payments to identify any costs
not in compliance with the IAAs. We identified $180 in FY 2010 and $4,340 in
FY 2011 in unallowable costs per the IAAs.

     Our testing was not designed to provide a comprehensive list of unallowable
expenditures.

EOUSA System for Tracking CVF Expenditures for the VNS Program

      To ensure compliance with the IAAs requirement to track and document CVF
expenditures, we requested accounting records from EOUSA for the VNS funding for
FYs 2009 through 2011. We compared CVF expenditures for the VNS to total
expenditures reported to the OVC for FYs 2009 through 2011.47 In FY 2009, we
found that the accounting records reflected more expenses than reported
expenditures to the OVC. EOUSA officials stated that when they request
reimbursement from the OVC they request up to the amount funded in the
agreement. If EOUSA incurs expenditures in the CVF accounting code in excess of
the amount funded in the agreement, EOUSA absorbs those excess costs with direct

       47
          Our analysis of accounting records for the VNS funding included the new funding awarded
to EOUSA for FYs 2009 through 2011 as well as the carryover funding from the previous years.


                                                43

funds. Therefore, the CVF accounting records include non-CVF expenses. We were
unable to determine which specific expenses were associated with the CVF funding
and which specific expenses were associated with direct funding.

Reimbursements Requested from the OVC under the VNS Program

        To determine if EOUSA properly requested reimbursement from the OVC for
incurred expenses, we compared the total expenses eligible for reimbursement for
FYs 2009 through 2011 per the accounting records to the reimbursed amount
EOUSA received from the OVC. EOUSA requests reimbursement for incurred
expenses; this includes expenses in the accounts payable or paid status.
Therefore, EOUSA does not receive reimbursement for any outstanding obligations
until it receives a final invoice. From the accounting records, we added the total
paid and total accounts payable to determine the expenses eligible for
reimbursement. We compared that to the total requested reimbursement from the
OVC.

       We also compared the total amount reimbursed by the OVC to the total
available funding according to the IAA to ensure reimbursement requests were
within the terms of the agreement.

Inaccurate Reporting of CVF Funds for the VNS Program

      To determine if EOUSA had properly reported total expenditure of funds to
the OVC, we compared the total CVF expenditure of funds per the accounting
records to the total expenditure of funds reported to the OVC for FYs 2009 through
2011. To calculate the total expenditure of funds reported to the OVC, we
subtracted the unspent funding reported at the end of the year, known as carryover
funding, from the total available funding for the year.

Insufficient Accounting Records for the VNS Program

       As explained previously, we conducted a site visit to the USAO for the District
of Kansas, where the VNS Project Manager is located. During our site visit, we
conducted transaction testing for a judgmental sample of 45 expenditures from the
VNS accounting records for FYs 2009 through 2011. The sample was selected
based on the largest transactions and as well as transactions that appeared to have
an increased risk of non-compliance based on the expense description. We
reviewed the transactions to ensure they were properly supported and within the
terms of IAAs. We also examined contract compliance and reviewed the contract
modifications and task orders to assess the contractor’s performance.




                                         44

                                                                               APPENDIX II

                SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS48                                                            AMOUNT         PAGE


170 Victim-Witness Coordinator Unallowable Costs                                685,047        26


170 Victim-Witness Coordinator Unsupported Costs                                   3,674       27


VNS Unsupported Costs                                                              2,678       29


TOTAL QUESTIONED COSTS                                                      $ 691,399




       48
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements; are not supported by adequate documentation at the time of the audit; or
are unnecessary or unreasonable. Questioned costs may be remedied by offset, waiver, recovery of
funds, or the provision of supporting documentation.


                                                45
                                                                                                    APPENDIX III

           EXECUTIVE OFFICE FOR U.S. ATTORNEYS
           RESPONSE TO THE DRAFT AUDIT REPORT


                                                            U.S. Department of Justice

                                                            Executive Office for United States Attorneys


Office of the Director                                   Sr.lile 2261 , RFK Main Juslice BUilding   (202) 252-/000
                                                         950 Pennsylvania Avenr.le. N W
                                                         Washington. DC 20530


MEMORANDUM
                                                             SEP 181014
DATE:

TO:                 Raymond J. Beaudet
                    Assistant Inspector General for Audit
                    Office of the Inspector General


FROM:              f1!f:f&~
                    Director

SUBJECT:            Executive Office for United States Attorneys' Response to the Office of the
                    Inspector General's Draft Report, "Audit of Crime Victims Fund Disbursements
                    to the Federal Bureau of Investigation and the Executive Office for United States
                    Attorneys"

        Thank you for the opportunity to review the Office of the Inspector General ' s (OIG) draft
report entitled "Audit of Crime Victims Fund Disbursements to the Federal Bureau of
Investigation and Executive Office for United States Attorneys." The Executive Office for
United States Attorneys (EOUSA) shares the Office of Victims of Crime's (OVC) commitment
to ensuring that the Crime Victims Fund (CVF) is used properly in accordance with the requisite
rules and regulations. In that context, EOUSA has reviewed the OIG findings and
recommendations, and provides the following responses to the findings and recommendations:

Finding I - Performance Enhancements for CVF Funded Programs

Recommendation #1 Work with each investigative agency, including the FBI, to develop a
                           R



process that ensures Victim-Witness Coordinators are notified and provided
comprehensive victim information as soon as a case involving victims is transitioned to the
USAOs.

       Response: EOUSA agrees to work with investigative agencies to develop processes for
those agencies to communicate timely and comprehensive victim information to Victim-Witness
Coordinators in the United States Attorneys' offices (USAOs) when a case transitions to a
USAO. EOUSA and the FBI will meet in September 2014, to begin discussions on this




                                                   46

                                                         2

recommendation. EOUSA also will consult with other investigative agencies to develop a
similar process. EOUSA accepts this recommendation.

Recommendation #2 - Evaluate the adequacy of the resources assigned to assist victims in
Indian Country and ensure that any further opportunities to increase the level of support
in Indian Country are appropriately pursued.

        Response: As part of EOUSA's ongoing assessment of victim-witness resources and
EOUSA's commitment to ensuring that resources assigned to assist victims in Indian Country
are adequate, EOUSA will request funding to support 12 Indian Country Victim-Witness
Coordinator positions in its FY 2015 and 2016 budget requests to ove. I EOUSA will evaluate
further opportunities in future budget cycles to increase the level of support to Indian Country.
subject to funding availability and Department policies. EOUSA accepts this recommendation.

Recommendation #3 • Ensure that victim data provided by all agencies participating in the
VNS can be automatically and accurately linked to the USAOs' case management system
information and evaluate potential enhancements the VNS access that would allow more
edit flexibility for cases designated as Global Cases.

        Response: EOUSA seeks clarification of ~iG's recommendation regarding linking
victim data to the USAOs' case management system. VNS already has a mechanism to detect
when records between the participating agencies do not match. That mechanism w_ the "error
log" w_ explains why a record from LIONS does not match with a participating agency record.

        With respect to ~iG's recommendation concerning enhancements to VNS to allow more
editing flexibility for cases designated as Global Cases, VNS was upgraded in January 2014.
The VNS now allows greater editing flexibility for cases designated as Global Cases.
Accordingly, EOUSA believes this recommendation has already been resolved.

Recommendation #4 - Improve performance reporting to ensure the data reported to the
OVC is accurate and complete, including increasing the consistency and frequency of
reporting to EOUSA and developing procedures to ensure employees report statistics prior
to departure.

       Response: EOUSA is in the process of developing new performance reporting
procedures for USAOs to use to report victim-witness activity. These procedures will provide
for more consistent and frequent reporting, thereby helping to ensure the data sent to DVC on an

I EOUSA received a total 0[$432,000 from ove during Fiscal Years (FY) 2010 and 2011 specifically for the
purpose of hiring 12 new tribal victimwwitness coordinator positions. While EOUSA began the allocation process to
utilize this funding for its original intended purpose, we were soon faced with the Department·wide hiring freeze as
well as budget limitations. Given the hiring freeze and budget constraints and uncertainty during this timeframe,
EOUSA made what we believed to be the most fiscally prudent decision not to seek a hiring exemption to bring
these new positions on board.




                                                   47

                                                  3

annual basis is more accurate and complete. As part of this effort, EOUSA will develop a
specific procedure for USAOs to collect stati stics and data from employees prior to departure.
New performance reponing procedures will be detai led in EOUSA's Annua l Compliance Report
on Victim and Witness Assistance upon implementation. EOUSA accepts thi s recommendation.

Recommendation #S - We recommend tbat EOUSA aDd the FBI enhance coordination
effort.s to ensure case transitions to the USAOs are accomplished in a timely, complete, and
accurate manner; that all parties are aware of the services the FBI Victim Specialists have
already provided or may continue to provide at the request of the victim; and tbat current
contact information for the FBI Victim Specialist!: and Victim-Witness Coordinaton at the
USAOs is exchanged. Additionally, coordination efforts should be enhanced to improve tbe
delivery of victim services in Indian Country, including using OTJ as a resource for
developing best practices and policies and promoting coordination with other federal
agencies working in Indian Country.

         Response: EOU SA and FB I are scheduled to meet in September 20 14, and wi ll begin
di scussions about how to improve case transitions to USA Os. In addition, we wi ll discuss how
best to ensure that aJ l parties are aware of the services FBI Victim Speciali sts provide to victims.
EOU SA wi ll also coordinate with the FBI to ensure current contact infonn ation fo r the FBI
Victi m Speciali sts and USAO Victim-Witness Coordinators is regul arly shared between
components.

         As part of the American Indian/A laska Native Children Exposed to Violence Initiative,
EOUSA is worki ng with the Office ofTribal Justice (OT!), FBI, and other agencies to identify
and fill gaps in victim services in Indian Country. This effort includes work to identify best
practices and policies to ensure high quality victim services in Indian Country. EOUSA accepts
thi s recommendatio n.

Recommendation #16 - We recommend that the FBI, EOUSA, and OVC discuss the need to
better align the CVF funded FTE programs and, if necessary, collaborate to establish
requirements for the FTE positions tbat ensure employees possess the necessary skills to
support victims of crime so tbat tbe bighest quality of services are being provided to
victims of crime.

         Response: While there are fu ndamental di fferences between FBI 's and EOUSA's CV F­
funded FTE programs, both components share the same commitment to ensuring hi gh quality
victim services are provided in every case. EOUSA will collaborate with the FBI and OVC to
better align the programs, and if necessary. to establish clear job qual ificatio ns for the FTE
positions. A meeting with the FBI , EOUSA and OVC is scheduled in September 201 4. to begin
di scussio ns on thi s recommendation and others li sted in the audit repon . EOUSA accepts this
recommendation.




                                                   48

                                                 4


Recommendation #7 - We recommend that the FBI, EOUSA and ove collaborate to
develop more uniform reporting standards for performance statistics.

       Response: In September 2014, EOUSA will meet with the FBI and ove to begin
discussions on developing uniform reporting standards for performance statistics that will be
included in each component's Annual Compliance Report on Victim and Witness Assistance.
EOUSA accepts this recommendation.

Finding II - Inadequate Internal Controls over the CVF Funds Administered by EOUSA.

         General Comment: The OIG found that EOUSA's total expenditures ofCVF funds
were over-reported. We believe the OIG relied on data regarding open obligations rather than
final, closed obligations, to reach its conclusion. Open obligations may fluctuate over time until
they are final. ~iG ' s apparent reliance on open, fluctuating obligations appears to have led to an
inaccurate conclusion regarding over-reporting. Nevertheless, EOUSA is committed to ensuring
that the CVF is used appropriately. We consistently expend more funds on victim-witness
activities than the amount that is reimbursed by OVC. This is supported by the total amount of
victim-witness obligations reflected in the financial system. To address the ~iG's concern about
the inadequate internal controls over the CVF funds, EOUSA has begun a quarterly obligation
review process with the United States Attorney' s offices that receive this funding in order to
ensure that all obligations captured under the CVF accounting code are proper.

Recommendation #8 - We recommend that EOUSA implement internal controls to ensure
EOUSA and the USAOs are in compliance with all rules, regulations, and guidelines
related to the administration of CVF funds and ensure CVF funds are accurately
accounted, properly executed, accurately reported to tbe OVC. Tbis includes improving
the tracking system to ensure that CVF expenses can be identified for reporting total
expenses incurred using tbe Victim-Witness Coordinator funding are allowable; and tbat
supporting documentation from tbe FBI, BOP, and USPS is provided prior to making
reimbursement payments for VNS-related expenses.

       Response: EOUSA agrees with this recommendation and has already completed the
necessary actions to alleviate this issue. Beginning in FY 2013, EOUSA has worked closely
with OVC to update the language in its reimbursable agreement to ensure compliance with rules
and regulations related to this funding. A majority of these updates also clarified that certain
expenses, which had been at issue in previous years, are allowable under the law. Specifically,
OVC has agreed that the following are allowable expenses under the Victim Witness
Coordinator agreement:

    •   The cost of contract personnel hired to assist in the victim witness functions at the
        USAOS;
    •   The cost of development, printing and dissemination of victim assistance brochures;
    •   The cost of supplies, postage, mail metering, delivery services, etc.;




                                                49

                                                 5

   •   Library/publication subscriptions and other resources necessary to providing victim
       assistance;
   •   Vehicles for the purpose of transporting victims or reaching out to victims; and
   •   Other costs necessary with the prior approval of ave.

       In addition, EOUSA provided updated guidance to each USAO to reflect more specific
guidance regarding allowable use of ove funds. A copy of this documentation was provided to
the OIG during its review.

         Going forward, EOUSA will ensure the hilling language for the outgoing reimbursable
agreements is updated to require copies of the supporting documentation related to each payment
that is processed by the Department through the Intergovernmental Payment and Collection
system (!PAC).

Victim's Rights Ombudsman

       In jts draft report, the OIG made the following statement on page 7, footnote 15:

               The Victim ' s Rights Ombudsman Department (VRO) within
               EOUSA investigates complaints related to possible CVRA
               violations by Department employees to determine whether the
               employee used his or her "best efforts" to ensure crime victims'
               rights are not violated.

       Please note that the office referred to in the above statement is the "Office of the Victims'
Rights Ombudsman," not the "Victim' s Rights Ombudsman Department."

       Thank you again for the opportunity to review the draft report.




                                                50

                                                                                        APPENDIX IV

           FEDERAL BUREAU OF INVESTIGATION
          RESPONSE TO THE DRAFT AUDIT REPORT



                                                    U.S. Depa rtment of Justice

                                                    Federa l Bureau of Investiga tion


                                                  Washington , O. C. 20535-000 I

                                                    August 28, 2014




The Honorable Michae l E. Horowitz
Inspector General
Office of the Inspector General
U.S. Department of Justice
950 Pennsylvania Avenue, N.W.
Washinglon, DC 20530

Dear Mr. Horowi tz:

       The Federal Bureau of Investigati on (FBI ) appreciates the opportunity to review and
respond to yo ur office' s report entitled, Audit a/Crime Victims Fllnd Disbursements 10 the
Federal Bureau of Investigation and Executive Office /01' United Stales Allorneys.

       The FB I has reac hed out to both the Executive Omce for United States Attorneys and the
Office for Victims Crime within the Department of Justice to increase coordination and enhance
program perfo nnance. In that regard, we concur with the fou r recommendations made to the FBI
and have already taken steps to implement them. Please find our enclosed responses.

       Should you have any questions, fee l free to contact me. We appreciate the
professionalism of your audit staff throughout this maUer.


                                                     Sincerely,



                                                     Kathryn
                                                     Assistant Di rector
                                                     Office for Victim Assistance




                                              51

                 The Federal Bureau of Investigation's (FBI) Response to the
       Office of the Inspector General's Audit of Crime Victims Fund Disbursements
               to the FBI and the Executive Office for United States Attorneys
                         Response to Draft Report Recommendations

Report Recommendation #5: "Enhance coordination efforts to ensure case transitions to
USAOs are accomplished in a timely, complete, and accurate manner; that all parties are aware
of the services the FBI Victim Specialists have already provided or may continue to provide at
the request of the victim; and that current contact information for the FBI Victim Specialists and
Victim-Witness Coordinators at the USAOs is exchanged. Additionally, coordination efforts
should be enhanced to improve the delivery of victim services in Indian Country, including using
OTJ as a resource for developing best practices and policies and promoting coordination with
other federal agencies working in Indian Country."

FBI Response to Recommendation #5: Concur. The FBI's OVA plans to address these
coordination issues in the upcoming meeting with EOUSA and OVC. During the FBI Victim
Assistance Program In-Service meeting held during the week of August 4 -7, OVA program
managers reminded all Victim Specialists to complete and submit the victim services checklist
established by the FBI in 2011 to the appropriate Victim-Witness Coordinator or a central POC
in that USAO. The guidance was reiterated in another email sent to all Victim Specialists on
08/20/2014. The checklist, which was voluntarily created by the FBI, is now a part of the FBI
Victim Assistance Program Standards. The OVA has also reminded EOUSA that the victim
services checklists are uploaded as part of the FBI's case file to which the USAO has access and
is not completed unless there are identified victims in the case. The FBI provides comprehensive
services to victims in Indian Country investigations and well over one third of these services are
provided at the request of the victim and/or the USAO after the case has been indicted.

Report Recommendation #6: "Discuss the need to better align the CVF funded FTE programs
and, if necessary, collaborate to establish requirements for the FTE positions that ensure
employees possess the necessary skills to support victims of crime so that the highest quality of
services are being provided to victims of crime."

FBI Response to Recommendation #6: Concur. The FBI agrees with this recommendation and
will discuss with EOUSA and OVC on the need to better align the CVF funded FTE programs.

Report Recommendation #7: "Collaborate to develop more uniform reporting standards for
performance statistics."

FBI Response to Recommendation #7: Concur. The FBI agrees with this recommendation
and will collaborate with EOUSA and OVC to develop more inform reporting standards for
performance statistics.




                                              52

                                                                                     APPENDIX V

         OFFICE OF JUSTICE PROGRAMS
     RESPONSE TO THE DRAFT AUDIT REPORT

                                                  U.S. De p artment of Justice

                                                  Office of Justice Programs




                                                  \IWJlu.,ton. D.C. 205JI

 AUG 2 8 2014

MEMORANDUM TO,               Michael E. Horowitz
                             Inspector General
                             United States Department of Justice

THROUGHo                     Raymond J. Beaudet
                             Assistant Inspector General for Audit
                             Office of the Inspector General
                             United Stales Department of Justice
                                              '{Yrfl
FROM,                        Karol V. Mason
                             Assistant Attorney General

SUBJECT,                     Response to the Office of the Inspector Geneml' s Draft Audit
                             Report. A udit ofthe Crime Victims Fund Disbursements 10
                             the Federal Bureau of Investigation and Executive Office for
                             United Slaies Allorneys

This memorandum provides a response to the Office of the Inspector General's (OIG's)
July 28, 2014, draft audit report, entitled Audit oflhe Crime Victims Fund Disbursements 10
the Federal Bureau of Investigation and Executive Office for United Siales Allorneys. The
Office of Justice Programs (OJP) appreciates the opportunity to review and comment on the
draft report.

The draft audit report contains 10 recommendations and $691,399 in questioned costs, of
which Recommendation Numbers 6·7 and 9-10, and $69 1,399 in questioned costs, pertain to
OJP. For ease of review. these recommendations are restated in bold and are followed by
OIP's response.

6.     We recommend tbat the FBI, EOUSA, and OVC discuss t h e need to better align
       tbe CVF funded FfE programs and, if necessary, collaborate to establish
       requirements for the FTE positions that ensure employees possess the necessary
       skills to support victims of crime so that the higbest quality of services ar e being
       provid ed to victims of crime.

        The Office of Justice Programs agrees with the recommendation. The Office for
        Victims of Crime (OVC) will collaborate with the Executive Officc for United States
        Attorneys (EOUSA) and the Federal Bureau of Investigation (FBI) to begin the
        discussion on establishing minimum standards for positions funded by the Crime




                                            53

      Victims Fund (CVF), and developing more standardized reporting. The first meeting,
      which will be held al OVC, is schedul ed for September 17, 2014. Given new
      legislation establishing statutory parameters of service provisions for both programs,
      as well as a new ove resource (to be released in the near future) on standards for
      victim programs, service providers and provider ethics, ove believes there is
      sufficient opportunity to more closely align these programs, while recognizing
      fundamental differences that are intrinsic to each program. The Office of Justice
      Programs considers this recommendation resolved and requests written acceptance of
      thi s action fro m your office.

7.    We recommend that the FBI, EOUSA, and OVC collaborate to develop more
      uniform rcporting stand ards for performance statistics.

      The Office of Justice Programs agrees with the recommendation. As previously slated
      in OJP's response to Recommendation Number 6 , avc has scheduled a meeting with
      Ihe EOUSA and the FB I for Seplember 17,2014, 10 begin the discussion on
      establishing minimum standards for positions funded by the CVF, and developing
      more standardized reporting. Any changes, as agreed upon by all three parties, will be
      included in the lAAs transferring funding to both entities. The Office of Justice
      Programs considers this recommendation resolved and requests written acceptance of
      this action from your office.

9.    We recommend that th e OVC remedy $685,047 in unaUowable costs from the
      Victim-Witness Coordinator fundin g.

      The Office of Justice Programs agrees with the recommendation. OVC will work with
      EOUSA to remedy the $685,047 in unall owable costs related to funding provided to
      EOUSA for the 170 Victim-Witness Coordinator positions. The Office of Justice
      Programs considers thi s recommendation resolved and requests written acceptance of
      thi s action from your office.

10.   We reco mmend that th e OVC remedy $3,674 in un sup po rted costs from the
      Victim-Witness Coordina tor fundin g and $2,678 from the VNS funding.

      The Office of Justice Programs agrees with the recommendation. ove will work with
      EOUSA to remedy the $6,352 in unsupported questioned costs related to fundin g
      provided to EOUSA for Ihe 170 Victim-Witness Coordinator positions ($3 ,674) and
      the Victim Notification System (S2,678). The Office of Justice Programs considers
      this recommendation resolved and requests written acceptance of this action from your
      office.




                                             2




                                           54

Thank you for your continued support and assistance. If you have any questions regarding
this response, please contact LeToya A. Johnson, Acting Director, Office of Audit,
Assessment, and Management, on (202) 5 14-0692.


cc:    Mary Lou Leary
       Principal Deputy Assistant Attorney General

       Maureen A. Henneberg
       Acting Deputy Assistant Attorney General
        for Operations and Management

       Joye Frost
       Director
       Office for Victims of Crime

       Leigh Benda
       Chief Financial Officer

       LeToya A. Johnson
       Acting Director
       Office of Audit, Assessment, and Management

       Rafael A. Madan
       General Counsel

       Silas V. Darden
       Acting Director
       Office of Communications

       Richard P. Theis
       Director, Audit Liaison Group
       lntemal Review and Evaluation Office
       Justice Management Division

       OJP Executive Secretariat
       Control Title IT20140729104032




                                              3




                                           55

                                                                  APPENDIX VI 


                 OFFICE OF THE INSPECTOR GENERAL

                ANALYSIS AND SUMMARY OF ACTIONS 

                  NECESSARY TO CLOSE THE REPORT


       The Department of Justice, Office of the Inspector General (OIG) provided a
draft of this audit report to the Executive Office for United States Attorneys
(EOUSA), Federal Bureau of Investigation (FBI), and Office of Justice Programs
(OJP). EOUSA, FBI, and OJP responses are incorporated into Appendix III,
Appendix IV, and Appendix V, respectively, of this final report. The following
provides the OIG analysis of the responses and summary of actions necessary to
close the report.

Analysis of the EOUSA Response

       EOUSA, FBI, and OJP each concurred with the recommendations addressed
either specifically or jointly to them. As a result, the report is resolved.

       In its response, EOUSA offered a general comment related to the internal
controls over the CVF funds administered by EOUSA. EOUSA believed that the OIG
reached its conclusions by relying on data that included open obligations, rather
than data that included final, closed obligations. Since open obligations fluctuate
over time until they are final, EOUSA believed that the OIG’s reliance on data with
open obligations led to an inaccurate conclusion regarding over-reporting.

       Although we agree with EOUSA’s explanation about open obligations, we do
not agree that the OIG’s conclusions were inaccurate. For the Victim-Witness
Coordinator funding, our analysis was based on FYs 2009 and 2010 because EOUSA
had submitted the final reimbursement request to the OVC for these years,
meaning all obligations were final. We did not include FY 2011 in our analysis
because there were still open obligations and the final reimbursement request had
not been submitted to the OVC. Additionally, in each section where we discuss
EOUSA’s reporting to the OVC for the Victim-Witness Coordinator funding and the
VNS funding, we state that reporting is based on the accounting records at the time
of reporting. For the VNS, our analysis was based on data that included open
obligations because that was the best data available to us at the time. Overall, our
objective was to ensure EOUSA had internal controls in place to ensure accurate
reporting and we are encouraged by EOUSA’s plan to address our concerns about
the inadequate internal controls over the CVF funds.

      In addition, EOUSA noted that the draft report contained an error related to
the appropriate title of the Office of the Victims’ Rights Ombudsman. This
correction was made in this final version of the report.




                                        56

Summary of Actions Necessary to Close the Report:

  1. We recommended that EOUSA work with each investigative agency,
     including the FBI, to develop a process that ensures that Victim-
     Witness Coordinators are notified and provided comprehensive victim
     information as soon as a case involving victims is transitioned to the
     USAOs.

     Resolved. EOUSA agreed with our recommendation. In its response, EOUSA
     explained that the FBI, EOUSA, and OJP will meet in September 2014 to
     begin discussions on this recommendation.

     This recommendation can be closed when we receive a copy of the processes
     developed by EOUSA, in conjunction with each investigative agency and the
     FBI, that will ensure its Victim-Witness Coordinators are notified and
     provided comprehensive victim information as soon as a case involving
     victims is transitioned to the USAOs.

  2. We recommended that EOUSA evaluate the adequacy of the
     resources assigned to assist victims in Indian Country and ensure
     that any future opportunities to increase the level of support in
     Indian Country are appropriately pursued.

     Resolved. EOUSA agreed with our recommendation. In its response, EOUSA
     explained that it will request funding to support the 12 Indian Country
     Victim-Witness Coordinator positions in its FYs 2015 and 2016 budget
     requests to the OVC. They will also evaluate future opportunities to increase
     the level of support in Indian Country.

     This recommendation can be closed when we receive documentation showing
     that EOUSA requested funding to support 12 Indian Country Victim-Witness
     Coordinator positions in FY 2015.

  3. We recommended that EOUSA ensure that victim data provided by all
     agencies participating in the VNS can be automatically and accurately
     linked to the USAOs’ case management system information and
     evaluate potential enhancements the VNS access that would allow
     more edit flexibility for cases designated as Global Cases.

     Resolved. In its response, EOUSA sought clarification on the 

     recommendation from the OIG and stated that it considered this 

     recommendation to already be resolved. 


     To clarify, this recommendation seeks to address the issue when multiple
     investigative agencies participating in the VNS enter victim information into
     the VNS for a jointly operated case. Victim information is only linked through
     the USAOs’ case management system for one investigative agency, which is
     designated in the USAOs’ case management system as the lead investigative
     agency. Therefore, victim information entered by the other investigative
                                       57
  agencies does not move through the VNS to the Victim-Witness Coordinators
  at the USAOs. Therefore, this recommendation can be closed when we
  receive evidence of the enhanced edit flexibility for cases designated as
  Global Cases as well as evidence that EOUSA has evaluated the potential
  enhancement to the VNS that would allow victim information from multiple
  investigative agencies to be transferred through VNS to the Victim-Witness
  Coordinators at the USAOs. If EOUSA does not enhance the VNS to address
  the issue related to jointly investigated cases, EOUSA should provide
  evidence of policies or procedures developed to ensure all victim data from
  multiple investigative agencies is transferred to the Victim-Witness
  Coordinators at the USAOs.

4. We recommended that EOUSA improve performance reporting to
   ensure the data reported to the OVC is accurate and complete,
   including increasing the consistency and frequency of reporting to
   EOUSA and developing procedures to ensure employees report
   statistics prior to departure.

  Resolved. EOUSA agreed with our recommendation. In its response, EOUSA
  explained that it is developing new performance reporting procedures for the
  USAOs to use to report victim-witness activity, which will include specific
  procedures to collect statistics from departing employees.

  This recommendation can be closed when we receive a copy of EOUSA’s new
  performance reporting procedures that ensure accurate, complete, and
  consistent data is reported to the OVC with increased frequency, and that
  employees report statistics prior to departure.

5. We recommended that EOUSA and the FBI enhance coordination
   efforts to ensure case transitions to the USAOs are accomplished in a
   timely, complete, and accurate manner; that all parties are aware of
   the services the FBI Victim Specialists have already provided or may
   continue to provide at the request of the victim; and that current
   contact information for the FBI Victim Specialists and Victim-Witness
   Coordinators at the USAOs is exchanged. Additionally, coordination
   efforts should be enhanced to improve the delivery of victim services
   in Indian Country, including using OTJ as a resource for developing
   best practices and policies and promoting coordination with other
   federal agencies working in Indian Country.

  Resolved. EOUSA and the FBI agreed with our recommendation. In its
  response, the FBI explained that during the FBI Victim Assistance Program
  In-Service meeting, FBI Victim Specialists were reminded to complete and
  submit the Victim Services Checklist. The guidance was reiterated in a
  subsequent e-email. The FBI also reiterated to EOUSA that the Victim
  Services Checklists are part of the FBI’s case file, which the USAOs have
  access. The FBI also planned to address coordination issues in the meeting
  with EOUSA and the OJP in September 2014.

                                   58

  EOUSA also explained it its response that during the September 2014
  meeting between EOUSA, the FBI, and OJP it will discuss how to improve
  case transitions to the USAOs. They will also coordinate with the FBI to
  regularly share contact information for the FBI Victim Specialists and
  Victim-Witness Coordinators at the USAOs. Finally, EOUSA explained it is
  part of the American Indian/Alaska Native Children Exposed to Violence
  Initiative, which includes the OTJ, FBI, and other agencies, which works to
  identify and fill gaps in the victim services in Indian Country.

  This recommendation can be closed when we receive evidence of improved
  coordination between the FBI and EOUSA that ensures case transitions are
  timely, complete, accurate, contain up to date contact information, and a
  clear description of the services provided or that will be continually provided
  by FBI Victim Specialists. In addition, evidence should be provided that
  coordination efforts by EOUSA and the FBI have been enhanced to improve
  the delivery of victim services in Indian Country, including evidence that OTJ
  was utilized as a resource in the development of best practices and policies
  that promote coordination with other federal agencies working in Indian
  Country.

6. We recommend that the FBI, EOUSA, and OVC discuss the need to
   better align the CVF funded FTE programs and, if necessary,
   collaborate to establish requirements for the FTE positions that
   ensure employees possess the necessary skills to support victims of
   crime so that the highest quality of services are being provided to
   victims of crime.

  Resolved. EOUSA, the FBI, and OJP agreed with our recommendation. The
  FBI, EOUSA, and OJP planned to meet in September 2014 to begin
  discussions regarding this recommendation.

  This recommendation can be closed when we receive evidence of the
  collaboration between EOUSA, the FBI, and OJP, and a copy of any newly
  established requirements for the FTE positions.

7. We recommend that the FBI, EOUSA, and OVC collaborate to develop
   more uniform reporting standards for performance statistics.

  Resolved. EOUSA, the FBI, and OJP agreed with our recommendation. The
  FBI, EOUSA, and OJP planned to meet in September 2014 to begin
  discussions regarding this recommendation. According to OJP, any changes,
  agreed upon by all three parties, will be included in the Interagency
  Agreements (IAA) with the FBI and EOUSA.

  This recommendation can be closed when we receive evidence of the
  collaboration between EOUSA, the FBI, and OJP, and any changes that result
  in more uniform reporting standards for performance statistics. This
  evidence should include any updates made to the IAAs.

                                     59

8. We recommend that EOUSA implement internal controls to ensure
   EOUSA and the USAOs are in compliance with all rules, regulations,
   and guidelines related to the administration of CVF funds and ensure
   CVF funds are accurately accounted, properly expensed, accurately
   reported to the OVC. This includes improving the tracking system to
   ensure that CVF expenses can be identified for reporting total
   expenditures and requesting reimbursements; that adequate
   guidance is provided to USAOs to ensure expenses incurred using the
   Victim-Witness Coordinator funding are allowable; and that
   supporting documentation from the FBI, BOP, and USPIS is provided
   prior to making reimbursement payments for VNS-related expenses.

   Resolved. EOUSA agreed with our recommendation. In its response, EOUSA
   explained that it has begun a quarterly obligation review process with the
   USAOs that receive CVF funding in order to ensure that all obligations
   captured under the CVF accounting code are proper. EOUSA also worked
   with the OVC to update language in its IAA to ensure compliance with the
   rules and regulations related to this funding. The updates clarified the
   allowablility of expenses. Finally, updated guidance was provided to each
   USAO. EOUSA also explained that it will update the IAAs between the FBI,
   BOP, and USPIS to require supporting documentation prior to payment.

   This recommendation can be closed when we receive evidence of the
   quarterly obligation review process, the IAA between EOUSA and OJP
   showing the updates, and the IAAs between EOUSA and the FBI, BOP, and
   USPIS showing the updates.

9. We recommend that the OVC Remedy $685,047 in unallowable costs
   from the Victim-Witness Coordinator funding.

   Resolved. OJP agreed with our recommendation. In its response OJP stated
   that it will work with EOUSA to remedy the unallowable costs.

   This recommendation can be closed when we receive evidence that the
   $685,047 in unallowable costs has been appropriately remedied.

10. We recommend that the OVC Remedy $3,674 in unsupported costs
    from the Victim-Witness Coordinator funding and $2,678 from the
    VNS funding.

   Resolved. OJP agreed with our recommendation. In its response OJP stated
   that it will work with EOUSA to remedy the unsupported costs.

   This recommendation can be closed when we receive evidence that the
   $3,674 in unsupported costs from the Victim-Witness Coordinator funding
   and $2,678 from the VNS funding have been appropriately remedied.




                                    60

